<html>
<title> - PERSONAL COSTS OF THE U.S. DEPARTMENT OF VETERANS AFFAIRS CLAIMS BACKLOG</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                 PERSONAL COSTS OF THE U.S. DEPARTMENT
                   OF VETERANS AFFAIRS CLAIMS BACKLOG

=======================================================================

                             FIELD HEARING

                               before the

                 SUBCOMMITTEE ON DISABILITY ASSISTANCE
                          AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 9, 2007
                 HEARING HELD IN NEW WINDSOR, NEW YORK

                               __________

                           Serial No. 110-51

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                     U.S. GOVERNMENT PRINTING OFFICE
39-460 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JOHN J. HALL, New York, Chairman

CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado, Ranking
PHIL HARE, Illinois                  MICHAEL R. TURNER, Ohio
SHELLEY BERKLEY, Nevada              GUS M. BILIRAKIS, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



                            C O N T E N T S

                               __________

                            October 9, 2007

                                                                   Page
Personal Costs of the U.S. Department of Veterans Affairs Claims 
  Backlog........................................................     1

                           OPENING STATEMENTS

Chairman John J. Hall............................................     1
    Prepared statement of Chairman Hall..........................    49
Hon. Doug Lamborn, Ranking Republican Member.....................     5
    Prepared statement of Congressman Lamborn....................    50
Hon. Timothy J. Walz.............................................     6
Hon. Maurice D. Hinchey..........................................    31

                               WITNESSES

U.S. Department of Veterans Affairs, Michael Walcoff, Associate 
  Deputy Under Secretary for Field Operations, Veterans Benefits 
  Administration.................................................    38
    Prepared statement of Mr. Walcoff............................    62

                                 ______

American Legion, Department of New York, R. Michael Suter, 
  Chairman, Veterans Affairs and Rehabilitation Commission.......    12
    Prepared statement of Mr. Suter..............................    52
Lazos, Alex, Harriman, NY........................................    19
    Prepared statement of Mr. Lazos..............................    56
Orange County Veterans Service Agency, Goshen, NY, Anthony Zippo, 
  Director.......................................................     9
    Prepared statement of Mr. Zippo..............................    51
Ryan, Christopher and Angela, Ellenville, NY, on behalf of 
  Sergeant Eddie Ryan............................................    33
    Prepared statement of Mr. and Mrs. Ryan......................    61
Senior, Eddie J., West Harrison, NY..............................    23
    Prepared statement of Mr. Senior.............................    59
Vietnam Veterans of America, Ned Foote, President, New York State 
  Council, as presented by John Rowan, National President, 
  Vietnam Veterans of America....................................    11
Wolf, Ted H., Pomona, NY, as presented by John Rowan, National 
  President, Vietnam Veterans of America.........................    21
    Prepared statement of Mr. Wolf...............................    58

                       SUBMISSIONS FOR THE RECORD

American Legion, Poughkeepsie, NY, Michael Tokarz, Legislative 
  Council Member, statement......................................    65
Rockland County Veterans Service Agency, New York, NY, Jerry 
  Donnellan, Director, statement.................................    66


                 PERSONAL COSTS OF THE U.S. DEPARTMENT
                   OF VETERANS AFFAIRS CLAIMS BACKLOG

                              ----------                              


                        TUESDAY, OCTOBER 9, 2007

            U. S. House of Representatives,
Subcommittee on Disability Assistance and Memorial 
                                           Affairs,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 9:30 a.m., in 
New Windsor Town Hall, Town of New Windsor Justice Courtroom, 
555 Union Avenue, New Windsor, New York, Hon. John J. Hall 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Hall, Lamborn and Walz.
    Also present: Representative Hinchey.

               OPENING STATEMENT OF CHAIRMAN HALL

    Mr. Hall. Good morning. Welcome to the field hearing of the 
House Committee of Veterans' Affairs Subcommittee on Disability 
Assistance and Memorial Affairs. This is a field hearing----
    Voice. Can't hear you.
    Mr. Hall. Welcome to the House Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs 
field hearing on the personal costs of the U.S. Department of 
Veterans Affairs (VA) Claims Backlog.
    First of all, I'd like to ask everybody to rise, and Mr. 
Michael Tokarz of the American Legion Legislative Council to 
lead us in the Pledge of Allegiance.
    [Pledge of Allegiance.]
    Mr. Hall. A few preliminaries.
    In accordance with Committee Rules, I'll ask, please, that 
everybody turn off their cell phones and pagers. I will do that 
myself, to set a good example.
    I'd like to welcome to the 19th District of New York my 
colleagues, Doug Lamborn, from Colorado, our Ranking Member on 
the Subcommittee; and Tim Walz, from Minnesota.
    Voice. Speak up, please.
    Voice. Can't hear you. And I got hearing aids.
    Mr. Hall. I can try to talk still louder.
    This is Congressman Lamborn from Colorado, the Ranking 
Member on the Subcommittee; and Congressman Walz, from 
Minnesota, who have come here, so that we can conduct this 
important field hearing.
    First, I'd like to thank the witnesses for coming today to 
appear before the Committee. I know the issues pertinent to the 
claims backlog at the Department of Veterans Affairs are of 
utmost importance to you.
    On a personal note, as Chairman of the Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs, it 
is a special privilege for me to conduct this hearing in my 
District, in the Town that my mother-in-law lives in, by the 
way; and an honor for me to be able to address the issues 
facing local veterans in or near their home towns.
    For our veterans who are testifying today, I know that you 
have endured a great deal in seeking disability benefits from 
the VA, and I thank you for sharing your experiences so that 
other veterans might not have to suffer the same result.
    The claims backlog of over 600,000 cases is very troubling. 
The current waiting periods at all levels of the VA disability 
benefits system, from 177 days at the regional office, to 700 
days at the Board of Veterans' Appeals, or 240 days at the 
Court of Appeals for Veterans Claims, are all unacceptable.
    Five years of funding shortfalls have exacerbated the 
backlog and created unmanageable wait times. This backlog is 
simply unacceptable, and the VA has shown little ability or 
interest in reducing the number of claims pending a decision.
    These veterans have mortgages, medical bills and tuition 
bills for their children's educations. The bill collectors 
don't wait 6 months, 2 years or 5 years to collect. You have to 
pay them every month.
    Ultimately, I believe the VA must meet the same standard; 
veterans should receive their claims decisions within a month.
    In the more immediate future, however, we must focus on the 
VA reaching a goal of 60 days to process a claim. These 
veterans stood up for our country, when asked, and now it's our 
turn to stand up for them.
    Congress also has responsibilities to give the VA the tools 
needed to help achieve that goal. Rather than saying 
``everything is under control,'' the VA needs to admit that 
there's a problem and tell us where we can make things better. 
The VA must hire better trained staff; utilize new 
technologies; and reform the system so it truly works for the 
veteran, not against him or her.
    Despite the backlog, I firmly believe that this system is 
girded by a cadre of dedicated and professional employees who 
are committed to our veterans.
    I know that my office has a wonderful working relationship 
with the New York VA Regional Office that serves our District, 
and I commend the employees there for the fine work they do 
every day for our veterans.
    However, the New York City VA Regional Office performance 
on processing claims has fallen, for whatever reason, far 
behind the national average. Currently, it averages 255 days to 
complete a claim, and has a pending backlog of 9,639; 20 
percent higher than its goal of 7,952.
    Furthermore, the Regional Office accuracy rating is 83 
percent, meaning 17 percent of veterans are getting thrown into 
the hamster wheel of the appeals process, which can take years 
to complete.
    I'm heartened by the fact that the fiscal year (FY) 2008 
budget bills will provide funding for over 1,000 full-time 
employees throughout the Veterans Benefits Administration 
(VBA), to help with this overwhelming work backlog.
    I look forward to sending the bill to the President in the 
coming weeks. However, I firmly believe that the only way to 
maximize the VBA's employees' effectiveness and lessen the 
backlog is to give them the necessary tools and training to 
provide accurate ratings.
    As such, I look forward to receiving information on the 
VA's STAR training program updates, as recommended by the 
Institute for Defense Analyses (IDA).
    As the home of the United States Military Academy at West 
Point, the 105th Airlift Wing of the Air National Guard at 
Stewart Airport, as well as Camp Smith, an Army National Guard 
Facility, we in the 19th Congressional District find that 
issues pertaining to the backlog hit especially close to home. 
There are over 70,000 veterans living in the District. The wars 
in Afghanistan and Iraq have a significant impact on the 
District, particularly the West Point community.
    Sadly, West Point, which Congressman Lamborn, Congressman 
Walz and I had a helicopter tour of and a brief foot tour this 
morning, has had 55 graduates die in combat since September 11, 
2001.
    With a number of these graduates heading to a combat zone, 
the VA's ability to deal with future claims is especially 
important to our community, as well as to the Nation's ability 
to retain future military officers.
    The men and women who have suffered physically, mentally 
and financially for months and years, while waiting for their 
benefits from the VA, are the same men and women who stood up 
and served their country when they were needed. Now they are 
made, it seems, to jump through hoop after administrative hoop 
just to receive the basic care and benefits they have more than 
earned with their sacrifice.
    Fulfilling our pledge to them, when asked, is the least we, 
as a grateful Nation, can do.
    The first panel of witnesses today will present testimony 
regarding the impact the extended waiting periods at the VA 
have had on the organizations that they represent.
    We will also hear the testimony of 4 veterans, from 3 
different wars, who will discuss the impacts of long waiting 
times on their personal lives and financial well-being. I look 
forward to their testimonies.
    I also would note that Ted Wolf, a Vietnam veteran battling 
prostate cancer, was scheduled to testify here today. While we 
will hear his testimony, because of health problems, he cannot 
be here himself. Ted and I have met on several occasions, and 
I'm praying for him and his family at this difficult time.
    From the VA, I'm looking forward to hearing what it is 
doing or intends to do to place appropriate resources in the 
New York Regional Office, what it is doing to both address the 
600,000 plus claims backlog, and to reduce waiting times.
    I want us all to remain aware of the special privilege we 
possess in being able to devise the policies and administer the 
benefits for these brave men and women and their families. 
There is real sanctity in this privilege. We should always be 
mindful of whom we are serving.
    Before I move on to other Members, I would like to 
recognize several members of the audience. Michael Tokarz, 
member of the American Legion Legislative Council, and Jerry 
Donnellan, the Veterans Service Agency Director for Rockland 
County, have provided written testimony for our record.
    Thank you.
    Nelson Rivera and Tom Myers, the Veterans Service Agency 
Directors for Dutchess and Westchester County respectively, are 
here as well. I want to thank them for helping. And I thank all 
our County Directors for their work in helping New York 
Veterans.
    We are lucky enough to have 2 Directors of National 
Veterans Service Organizations here today; John Rowan, the 
National Director of Vietnam Veterans of America. Thank you. 
Good to see you again. And Larry Shulman, the National 
Commander of Jewish War Veterans of the U.S.A. Thank you for 
being here, thank you for your service, as well, and for making 
the trip.
    I also want to thank Ron Touchy, Commissioner of Veterans' 
Affairs in the New York State Department of Labor, for 
attending. George Basher, the Director of New York State 
Division of Veterans' Affairs. In addition to his service to 
New York Veterans, Mr. Basher also serves on the Advisory Panel 
on Homelessness of the Secretary of Veterans Affairs in 
Washington. Vitally important work.
    Norm Bussel, a POW from World War II and an advocate for 
veterans is here. Thank you, Norm. Mr. Bussel and his wife, 
Melanie, first helped Alex Lazos, who will testify shortly, 
file his claim with the VA. Mr. Bussel provided compelling 
testimony for this Committee in Washington, and I'm pleased to 
see him again.
    Thank you to Supervisor George Green, of the Town of New 
Windsor, for letting us use this facility today. And Supervisor 
Novack, from Mount Hope, for attending.
    I also want to thank Arlene Randell, Michael Blythe, 
Richard Hody, John McDonald, Patrick Mangan, Jonathan Randell 
and Jessica Marina for helping us get all of this set up. And 
thank all of you for attending.
    You probably are aware, but just for those who have not 
been to a Congressional Committee or Subcommittee hearing, this 
is a public meeting in the sense that the public can watch and 
listen, but it's not public comment. So, just for information's 
sake, we have a full schedule of business that we need to do in 
a short time. We have witnesses who have already been called. 
And in case anybody came here unbidden, hoping to give 
testimony or to speak to the Committee, what we're doing is 
opening the record for 5 business days to accept written 
testimony from any veteran here who is not on the panel, and to 
revise, extend and receive additional statements and remarks.
    I request unanimous consent that the record remain open for 
5 business days.
    Without objection, so ordered.
    I would now like to formally welcome our Ranking Member, 
Doug Lamborn, to the District, joining us all the way from 
Colorado's 5th District, home of the Air Force Academy. There's 
a big game coming up in 2 weeks, by the way. I now recognize 
him for his opening statement.
    Thank you for being here. I know you're just as committed 
to fixing the VA's claims backlog as I am.
    [The prepared statement of Chairman Hall appears on p. 49.]

             OPENING STATEMENT OF HON. DOUG LAMBORN

    Mr. Lamborn. Thank you, Mr. Chairman. And I want to thank 
you for inviting me here to New Windsor, to hear from witnesses 
on the personal costs of the claims backlog.
    Before I begin, I also want to recognize Larry Shulman, the 
National Commander of the Jewish War Veterans of the U.S.A. 
Thank you for your attendance today.
    Also, I want to welcome John Rowan, the National President 
of Vietnam Veterans of America.
    So I look forward to working with both of you in the coming 
year.
    As everyone is aware, the VA's compensation and pension 
backlog has reached an epic and regrettable level. The over 
400,000 disability compensation claims in the backlog are not 
just marks on an inventory sheet, but represent a real veteran 
or their family who is waiting patiently for VBA to adjudicate 
their claim in an accurate and timely manner.
    In reading the testimony of the second and third panel, it 
seems to me that there is much work to be done in reaching this 
human level.
    I am also not convinced that if we had the same hearing in 
my home State of Colorado, that we would not find other 
veterans with similar problems of those veterans who are with 
us here today in New Windsor.
    VA has set a goal to decide a given claim in an average of 
125 days. While more than 4 months strains the meaning of the 
word prompt, it is not unreasonable, given the complexity and 
demands of the Veterans Claims Assistance Act (VCAA) and other 
administrative requirements, but we need the VA to just do it.
    I know that we in Congress bear some responsibility for all 
this complexity. And I'm always looking for ways to help 
improve the bureaucratic process while safeguarding it for 
veterans. That is why my staff and I have consistently asked VA 
to help us help you.
    To the VA I say, send us legislative proposals and 
solutions for all of the challenges that are listed in Mr. 
Walcoff's written testimony.
    While I acknowledge that there is no silver bullet that 
will eliminate the backlog, I believe we can take immediate 
vital action by passing my bill, H.R. 3047, the ``Veterans 
Claim Processing Innovation Act of 2007.'' This would be an 
important first step to helping solve problems in the VA's 
claims process. H.R. 3047 will bring VA's compensation and 
pension system into the 21st century by increasing 
accountability and leveraging technology at the VBA. This bill 
would improve the accuracy and speed of benefits claims.
    While I agree that VBA is making some improvements in terms 
of timeliness and needs to be adequately staffed, I am 
concerned that quality may be sacrificed in the name of speed.
    Mr. Chairman, I know that we can both agree that after our 
2 hearings; this session on the Board of Veterans' Appeals and 
the Court of Appeals for Veterans Claims, that accuracy is a 
problem systemwide. One way to improve this is by increasing 
training and accountability at VBA, something that is included 
in H.R. 3047, by requiring an independent agency to review and 
certify VA's training programs. I would rather have a veteran 
wait just a little bit longer for an accurate and fair rating, 
than have them receive their rating quickly and be wrong. It is 
imperative that all claims are done right the first time, and I 
know that improving training is the first step toward this.
    I thank you, Mr. Chairman, for promising to hold a 
legislative hearing on H.R. 3047 later this month.
    I want to thank all the witnesses who have come here today 
for the testimony they will be giving. And I want to thank my 
good friend, Chairman John Hall, for inviting me here this 
morning.
    And I yield back to the Chairman.
    [The prepared statement of Congressman Lamborn appears on 
p. 50.]
    Mr. Hall. Thank you.
    Now for an opening statement, we'll recognize a Congressman 
who I believe is the highest ranking enlisted person to serve 
in the United States Congress, retired Sergeant Major, Mr. Tim 
Walz, from Minnesota.

           OPENING STATEMENT OF HON. TIMOTHY J. WALZ

    Mr. Walz. Thank you.
    Well, thank you. And thank you to the Chairman Hall.
    For the gentleman in the back, that was--that was 24 years 
in the artillery, so you and I can have that conversation of 
not hearing back and forth.
    But I want to thank the Chairman for holding this hearing. 
I want to especially thank him for his passionate voice on this 
issue of bringing this to Congress. Not a day goes by, not a 
hearing goes by where Congressman Hall doesn't express the 
desire to make this system better and to do whatever is 
possible to serve our veterans. And for that I'm thankful.
    And for Ranking Member Lamborn coming to us from a very 
important District, he may have one of the largest number of 
veterans living in his District of any place in the country, 
with the Air Force Academy being there and Fort Carson being 
located right there too, so he brings a passion to this.
    And I think the one thing you're going to see on this day 
and the things that you hear about the--the breakdown of 
communication in Congress, you can rest assured that this 
Committee and those of us up here, there is no partisanship on 
this issue. We don't even talk about bipartisanship on this. 
This is non-partisan.
    This is a critical issue, not only for the moral 
responsibility of taking care of our veterans, but for our 
National security interests of making sure our younger 
generation understands that when they sign up and they serve 
this Nation, they're going to receive the promises that were 
given to them, and we're going to follow through with them.
    So to both of these gentlemen, I thank them for their 
passionate voice. And you can rest assured, this is one area 
where I think the people's business is being done. I'm proud of 
the work we're doing, but we're sure not willing to rest.
    This issue of the claims backlog--and as--as Chairman Hall 
indicated, when I got to Congress, I did not know this at the 
time, but the House Historian came up to me and he said, Mr. 
Walz, in the 228 years of Congress, you are the highest ranking 
enlisted soldier to ever serve in Congress as a Command 
Sergeant Major. And I told that at one of these hearings, and 
it was with the Veterans of Foreign Wars (VFW) of the United 
States, and one of their members stood up and said, it's about 
damn time then that we get that done.
    So I'm proud to serve with these gentlemen. I'm proud to 
understand. I sat where many of you are. I want to thank all of 
those people here from the veterans service organizations 
(VSOs) and those working with veterans.
    The one thing you can be assured of on this issue, there 
may be differences on how to accomplish what we're after, but 
there is absolute unanimity in how we are going to address this 
issue and the importance of it.
    And those of you in those veterans service organizations, 
who have spent decades, literally decades, fighting for what 
you know is right, I'm here to tell you that this Committee and 
this Congress that's--that's taking on these issues of 
veterans' benefits understand that we in Congress and the 
Veterans' Affairs Committee and the Veterans Affairs Department 
need to understand that they are advocates for you. Not 
adversarial. And we need to change the culture of that. We need 
to understand that what we're trying to do here is what this 
country wants.
    There is no issue that unifies this Nation more than the 
care of our veterans. You cannot find anyone that does not want 
to do what's right or want to deliver those services. And it's 
incumbent upon us that sat here, and those of us delivering the 
services through Veterans Affairs to figure out: Do we have the 
resources necessary to do that? Do we have the systems in place 
to deliver that? And are we providing constant oversight to 
make sure that happens?
    And those that are here, I say it every time we have these 
testimonies, but one thing you can rest assured is we're 
partners in this. We're simply looking to make the system 
better.
    And when I go to the hospital that's in my State, it's 1 of 
the 4 polytrauma centers located throughout the country, at the 
Minneapolis VA, that facility is providing the highest quality 
of care of any medical facility in the world, and they are 
treating the most grievously injured soldiers with traumatic 
brain injuries, and multiple amputations coming back from our 
current conflict. And I'm up there with a mother from Michigan, 
who is sitting there with her son, who is a double amputee and 
has traumatic brain injury, and she tells me the only thing 
that gets her through every day are the angels that serve on 
that floor of that VA facility, and that's the nurses and the 
doctors that take care of him.
    So all of us understand, we're in this together. We're 
trying to improve the quality of care.
    Many of us find it unbearable that we're asking our 
veterans to wait on this. And many of us find it unbearable 
that we're falling into a situation where we're pitting one 
group of veterans before another. And that situation is very 
difficult, because there is not a veteran or a supporter alive 
that doesn't understand triage and doesn't understand that 
those most in need of care need to go first. But it's very 
difficult for me, when I've got a First Sergeant from the 
Korean war who is sitting out in Rochester, Minnesota, and is 
being told he has to wait in line for his injuries that he 
received in combat defense of this Nation, at a time when 
they're telling us we can't--we don't have enough. We don't 
have enough care providers to get this soldier in and to get 
him taken care of.
    So this claim backlog, this situation that just strikes at 
the heart of many of us as being just a grievous injustice to 
our--to our veterans, and we cannot allow it to be a faceless 
bureaucracy, and blame it on the bureaucracy, or whatever.
    As Congressman Lamborn said, and I applaud him every time 
he says this, to cut through this bureaucracy, to streamline 
it, to keep the safeguards in place, but, for goodness sake, 
give the benefit of the doubt of presumption to the veterans. 
And not the other way around. That these people who served our 
Nation, and were injured in defense of it, are now being asked 
to try and prove that they were injured in many cases.
    And my colleague, who is not here today, but Congressman 
Phil Hare from out in Illinois, always talks about, and I think 
it's an intriguing idea, the assumption is when you file your 
tax returns, that you're signing on there that you're telling 
the truth. And what they do is, they come back and audit, if 
you're not telling the truth. So you can file your tax return, 
get it in, get it entered and get a rebate, out of the millions 
and millions that are being filed, within a 10-day period now. 
Why don't we have the presumption that many of these people who 
are coming in, the presumption is that they're telling the 
truth, and we'll go back and audit. So if there's 2 percent 
committing fraud, 98 percent of our veterans are being made to 
wait up to 700 days. So somewhere in there we can change our 
assumption, change that paradigm of how we're looking at it. 
And give those who are trying to administer this, these VSOs 
and these County Veterans Service Officers (CVSOs) who are out 
there, trying to do the best they can, and they're working 
inside our State administrations of veterans are having an 
incredible burden put on them.
    So I thank the Chairman and thank the Ranking Member for 
having us here. I'm looking forward to this testimony.
    And, as Congressman Lamborn said, you could replicate this 
in Colorado, you could replicate this in the First District of 
Southern Minnesota, and you would hear the same stories, with 
the same concerns. And I think it's time for us, as to 
understanding our responsibility, as now is the time for 
change, not just talk.
    So I yield back.
    Mr. Hall. Thank you, Mr. Walz.
    Now I'd like to ask our first panel to join us at the 
witness table.
    Our first panel includes Anthony Zippo, Director of the 
Orange County Veterans Agency; Ned Foote, New York State 
Council President for Vietnam Veterans of America; and John 
Rowan will be joining him for any possible questions that are 
directed at that organization; and R. Michael Suter, 
Rehabilitation Field Coordinator for the American Legion.
    I'll remind our panelists that your written testimony has 
been submitted for the record, so you'll be each recognized for 
5 minutes. There's no need to read the whole thing, if you 
don't want to. You can just give the highlights or whatever you 
think is most important for us to hear. Your written testimony 
is already part of the record.
    Please limit your remarks to 5 minutes, so that we have 
sufficient time for follow-up with questions, once everybody 
has provided their testimony.
    Mr. Zippo, we'll go ahead and recognize you for 5 minutes.

 STATEMENTS OF ANTHONY ZIPPO, DIRECTOR, ORANGE COUNTY VETERANS 
  SERVICE AGENCY, GOSHEN, NY; NED FOOTE, PRESIDENT, NEW YORK 
  STATE COUNCIL, VIETNAM VETERANS OF AMERICA, AS PRESENTED BY 
 JOHN ROWAN, NATIONAL PRESIDENT, VIETNAM VETERANS OF AMERICA; 
     AND R. MICHAEL SUTER, CHAIRMAN, VETERANS AFFAIRS AND 
 REHABILITATION COMMISSION, AMERICAN LEGION, DEPARTMENT OF NEW 
                              YORK

                   STATEMENT OF ANTHONY ZIPPO

    Mr. Zippo. Thank you, Chairman Hall and the other Members 
of the Subcommittee on Disability Assistance and Memorial 
Affairs for giving me the opportunity to speak for our veterans 
here in Orange County.
    We have approximately 27,000 veterans in this county, 
including 1,300 Iraqi veterans.
    Last year Orange County received $27 million from the 
Veterans Administration for its disability and pensions.
    As a county veterans service agency, our staff has the 
first-hand experience with the issues facing veterans today. 
One of the most frustrating aspects of assisting veterans with 
disabilities or their survivors, is having to explain that the 
Veterans Administration processing time could take up to a 
year, or more. Sometimes 3 months, sometimes 6 months, 
sometimes 9 months. There's no rhyme or reason to these claims. 
There is no explanation why it should take so long.
    We are taught by the Veterans Administration and Veterans 
Organizations to submit completed claims. Even--often, even 
when our evidence is submitted, issues are not addressed and 
the claims are delayed. Delaying the claim may also delay the 
veteran's medical care, education, vocational rehab, tax 
exemptions and other benefits that the veterans need.
    Very often, these are the people who, due to serving their 
country, are no longer able to support their families or 
otherwise return to their former lives.
    There was a family stationed here at West Point. This 
family had, I believe, 8 children. The officer was in the 
Reserves and being deployed to Iraq. He was an engineer at 
civilian life, making a good salary. Of course, being deployed 
changed all that. West Point didn't have the quarters for the 
family, causing them to live off base. The American Legion had 
to take this family under its wings and help house and feed 
them.
    Many of our veterans are reservist or National Guard 
activated to federal duty. When they are deployed, they leave 
behind their families and their jobs. Many return with 
injuries, physical and emotional, and are unable to assimilate 
back into their former lives due to the post service 
disabilities.
    The delay in the adjudication of these claims put their 
lives on hold. Monetary benefits and vocational rehab benefits 
granted in a timely manner could make a more seamless 
transaction back into civilian life.
    There are some veterans who, because of the delays, are 
getting deeper into financial debt. They are paying for their 
medical care, and they do not receive any benefits from the VA 
until their claim is settled.
    In December 2005, we assisted a remarried widow with an 
application to have her Dependency and Indemnity Compensation 
restored. This entitlement was based on her husband who was 
killed in action in World War II. Her benefits were not 
restored until March 2007, and only after we advised her 
daughter to contact the mother's Congressman, which is 
Congressman Hall's office, and the Congressman contacted the 
VA. During the 15 months the claim was pending, the widow 
became gravely ill. It appeared she might pass away before she 
received her benefits. This was especially frustrating because 
it was noted in the VA records on May 11, 2006, that her 
benefits should be administratively restored.
    Now to defend the Veterans Administration. Their staff in 
the regional New York Office was close to 300 about 3 years 
ago. Now it is around 100, due to hiring freezes, plus their 
workload has increased because of the war in Iraq. Now they are 
starting to hire again. Many--however, many of the people are 
retiring, taking their experience with them. VA claims 
processing is not an easy job. It takes years of working with 
these claims and training to get the experience to rate a good 
claim.
    Now, 2 examples of Iraqi veterans. An Iraqi veteran was 
discharged May 31, 2006. The VA received the claims of several 
conditions on June 1, 2006. It was noted on the claim that he 
was an Iraqi veteran. The claim was still with the pre-
determination team at least until March 5, 2007, as per the 
American Legion. On May 7, 2007, the VA granted one of the 
claimed conditions 10 percent for tinnitus. All other claimed 
conditions are deferred and still pending after 15 months.
    Another example is an Iraqi veteran with 2 periods of 
active duty was discharged December 10, 2005. The VA received a 
claim on May 18, 2006, as per the American Legion. The VA pre-
determination team, as of December 4, 2006. The claims filed in 
the front office were continued--continued under deployment. As 
per the American Legion, on April 16, 2007, the claim was with 
the pre-determination continued development. The claim is now 
16 months old.
    Thank you.
    [The prepared statement of Mr. Zippo appears on p. 51.]
    Mr. Hall. Thank you, Mr. Zippo. We'll come back to you for 
questions.
    Now we'll recognize Mr. Foote for 5 minutes, please.

       STATEMENT OF NED FOOTE, AS PRESENTED BY JOHN ROWAN

    Mr. Foote. Thank you. I'm Ned Foote. I'm President of the 
New York State Council of Vietnam Veterans of America. My 
testimony has been confiscated by our National President.
    Mr. Hall. Excuse me.
    Mr. Foote. Following the chain of command.
    Mr. Hall. Sir, excuse me. Could you speak as close to the 
microphone as you can. And loudly.
    Mr. Foote. Can you hear me now?
    Mr. Hall. It's the people in the back that need to hear 
you. So thank you.
    Mr. Foote. I'm here to represent our veterans in New York 
State that also has a backlog of claims. One gentleman in the 
back here just told me this morning, he's going on 4 years of 
waiting for something to be done.
    So I'm basically here to help answer questions that you may 
have.
    I'll turn it over to our National President.
    Thank you.
    Mr. Rowan. Mr. Chairman, and Ranking Member Lamborn, Mr. 
Walz. Good to see everybody again.
    Unfortunately, because of other business, we were unable to 
produce a written testimony. And we will--I will be reading 
some testimony in the next panel, which will give you a more 
personal view of what happens to an individual when they come 
into this backlog and other delays.
    But the real question here is--is not just the new veterans 
either. I mean, one of the things that needs to be clear is, 
unfortunately, a lot of us older veterans are coming into the 
system now, many years after the fact.
    The nature of warfare, since Vietnam, and to some extent 
even before, but certainly in Vietnam and in the Desert, in the 
Gulf War, first Gulf War, and even today in the new Gulf War, 
we are seeing and running across things that are unusual in 
warfare, I guess, except in these modern times perhaps it's 
becoming the norm, and that is people become disabled not only 
because of injuries inflicted upon them during combat, but from 
being exposed to toxic substances, in our case, in Vietnam, 
Agent Orange, in the new case all these gases and pollution and 
all kinds of parasites and other kinds of things in the desert 
that don't flourish until many years after somebody has left 
the service.
    And so while it is true that the new--that the VA was 
certainly not ready to service 60,000 wounded veterans coming 
back from the war, they also are not ready for the thousands of 
diabetics that are being released into the system now, 30, 40 
years after the fact.
    And I keep using myself as the classic example. Until I got 
diagnosed with diabetes, and then, of course, neuropathy and 
some other aspects of the secondary conditions to the diabetes, 
and until the VA finally agreed the diabetes was related to 
Agent Orange, I was never service connected for anything. I, 
thankfully, got through the war unscathed, but it caught up 
with me 40 years later. This is happening to many of the 
Vietnam veterans; that is prostate cancer, diabetes, lung 
cancer, several other kinds of cancers that we're getting in 
our fifties and sixties and now have to file claims.
    There are 200,000-250,000 Vietnam veterans that have 
already filed claims of diabetes with the VA. We think, by the 
way, that number is about half of what it ought to be. And one 
of the things we're trying to do is do massive outreach to the 
private-sector medical community, so that they can inform their 
veteran clients about what it is they're entitled to. And we're 
in the process of doing a massive outreach in that regard. And 
we're trying to work with some of the drug companies, etcetera, 
who talk to doctors on a regular basis.
    We have also just formed what we're calling--we're about to 
form what we're calling the Veterans Health Council, made up of 
various medical groups, such as physicians and nursing groups 
and other kinds of folks, along with the various advocacy 
groups for certain diseases, such as the American Diabetic 
Association, the Prostate Cancer Awareness Groups, and things 
like that, because we need to pull these people together to get 
them to understand what it means to be a veteran and how it 
impacts on their health.
    We had a big meeting with one of the major drug companies 
that deals with diabetic drugs. And their diabetic educator, 
who has been working on the program for 7 years, had no idea 
that there was a connection with veterans, with Vietnam 
veterans.
    So this is really what's compiling the backlog, that and 
the fact that, in a perverse way, it's really strange, that 
many of the Vietnam veterans who worked for the VA are now 
retiring, and they're not being replaced, haven't been replaced 
in many years, and so all of the VA Regional offices, except 
for maybe a couple, are way understaffed.
    And, of course, Congressman Lamborn, you were right on when 
we talk about the fact that this is a horrible, antiquated 
system that needs to be upgraded and brought into the 21st 
century with computerization.
    Thank you.
    Mr. Hall. Thank you, Mr. Rowan.
    Mr. Suter, you're now recognized for 5 minutes.

                 STATEMENT OF R. MICHAEL SUTER

    Mr. Suter. Mr. Chairman and Members of the Subcommittee, on 
behalf of our National Commander, Marty Conatser, and, of 
course, our Department Commander, Bill Burnett, I thank you for 
this opportunity to speak on behalf of VA claims backlog and 
its impact on our veterans economically and physically.
    My formal statement has been submitted, and I'm going to 
take this advantage to hit it from another angle and not even 
worry about that.
    As a Veterans Affairs representative and a past County 
Veteran Service Agency Director, my most difficult task was to 
tell a veteran the claim was denied and now we must appeal the 
Regional Office's (RO's) decision. The first question that 
comes up by that veteran is, what am I supposed to do for the 
next year, or more, while I wait on a decision?
    In FY 2006 the VBA issued 39,076 decisions. Ninety-five 
percent of those involved comp claims. During the 11 months 
following that, the first 11 months FY 2007, the VBA issued 
more than 37,000 decisions. Only 41 percent of the RO decisions 
were affirmed. Twenty-one percent of the RO decisions were 
overturned. Thirty-five percent of the regional office 
decisions were remanded.
    Further development, emphasis on the production continues 
to be the driving force at the RO, at times taking priority 
over training and quality assurance.
    In my official statement, I listed 5 different veterans, 
actually 4 different veterans and a widow of a World War II 
veteran, who are having a lot of difficulty trying to get what 
is owed to them.
    The claims backlog--and this is something that we don't 
talk about very often. We say, okay, it's going to take a year 
to get your claim approved or denied, or whatever it's going to 
be. That decision also affects veteran's entitlements to other 
benefits. Those benefits, free healthcare for your service-
connected disability; both rehab and job replacement; special 
adaptive housing. Automobile grants; 10 additional points for 
preference on a civil service desk; additional allowance for 
dependents; and Champ VA medical coverage for dependents.
    A veteran's nightmare, when a claim must be appealed, is 
not that of the war, but rather will the bank defer my mortgage 
payments for the next year and a half? Where do I get my next 
meal for my family? How can I get clothes and other things, 
school supplies, for my children, so they can go to school?
    There's enough blame to go around, so, you know, we don't 
need to point fingers. This isn't a political problem, in any 
stretch of the imagination. It's not a Democratic or Republican 
issue. This is an American challenge to take care of those who 
have taken the time out of their lives to stand up and be 
counted.
    Dating back to the Civil War we've had the same issues over 
and over again. We might call it something different, rather 
than shell shock, it's post traumatic stress disorder (PTSD), 
or whatever. The bottom line is since the Civil War we've had 
these problems. They've not gone away. War is terrible. It 
takes a terrible tragedy on the body. And we know that for a 
fact. While some have had to pay the ultimate sacrifice, others 
have sacrificed their bodies and their minds to ensure our way 
of life.
    Please don't just throw more money at the issue. Ensure the 
staffing needed is provided. Ensure the ROs have time to train. 
And please drop the quotas from all that they do, which puts 
nothing more than one part of the VA against the other. In this 
case, the VBA against the RO. The VBA wants production. Trouble 
is when they put a quota on the regional office, that forces 
that production. The VBA is trying to cut back on remands. It's 
kind of hard for them to do it without blaming the ROs for 
their quality of production. It's just a very difficult thing. 
We need to all get together.
    The VA practices, or at least talks about, a ``One VA.'' We 
need to ensure that VA does everything that our veterans need 
them to do.
    It is an extreme disservice to veterans, not to mention 
unrealistic, to expect the VA to continue to process an ever 
increasing workload while maintaining quality and timeliness 
with less staff.
    I'm a service-connected veteran, and I'm not mad at the VA, 
although I do get a little frustrated from time-to-time with 
them. The VA is not the enemy of veterans. Inadequate staffing 
levels is the enemy of veterans. Pressure to make quick 
decisions is the enemy of veterans. All of which results in an 
overall decrease in quality of work and more appeals.
    A standard concern the VSOs have stated was here in the 
Washington District. And I know that you had the opportunity to 
listen also to the American Legion testimony about 2 weeks ago, 
I believe it was, now.
    Today you're hearing from veterans young and old alike. I 
thank you again, Mr. Chairman, for conducting this field 
hearing, coming at home out here in your own home, to the 
trenches to listen to what veterans have to say.
    Thank you, sir.
    [The prepared statement of Mr. Suter appears on p. 52.]
    Mr. Hall. Thank you, Mr. Suter.
    Thank you all for your testimony.
    I'll just start the questioning from up here. We'll each 
have 5 minutes to ask questions of each panel.
    I would begin by asking Mr. Zippo, you mentioned that the 
New York office was down from, a staff of 300, to 100. Is that 
claims processors?
    Mr. Zippo. Yes, sir.
    Mr. Hall. Okay. What do you think would be adequate for the 
caseload that's coming through there; restoring that back to 
300 or----
    Mr. Zippo. That I'm not sure of how many. But if they 
change the system--the Congressman mentioned triage.
    Mr. Hall. Right.
    Mr. Zippo. Again, when we send completed claims in, if it 
went through a triage team, they can be finalized right there 
and sent right out for adjudication.
    Mr. Hall. That makes sense.
    Would you think that it would help if the Court of Appeals 
for Veterans Claims or VBA had a requirement when they see a 
claim, a multi-faceted claim, to rule on all facets of that 
claim the first time they see it?
    Mr. Zippo. Yes, sir, that would really help a lot.
    Mr. Hall. Thank you.
    Mr. Foote and Mr. Rowan, whoever wants to take this 
question, you talked about 250,000 Vietnam veterans filing, in 
the last year is it?
    Mr. Rowan. Over the last few years. We first got, I believe 
in 2003, when the Secretary finally signed the ruling that made 
the presumption--made diabetes a presumption for Agent Orange 
exposure, that it was related to their service in Vietnam. And 
that is a classic example of something that can speed up the 
system.
    If we--I've worked as a service rep also, and if we had--
the ability for the service reps to file a claim that they 
would note was ready to rate, and for those in the system know 
what that means, it's ready to go. And if I have a diabetic and 
I have a DD-214 that shows they were in Vietnam, that case is a 
slam dunk, ready to go. It should not be waiting 6 months to 
get adjudicated. It should take 6 days to get adjudicated.
    The raters ought to be--the triage people ought to see 
ready to rate across the board by the service rep saying, here 
it is, here's the evidence, here's the doctor's note, here's 
the DD-214. Send him his check. I mean, there's just no point 
to this waiting and waiting and waiting.
    And the other issue you raised, Congressman Hall, about 
multiple problems, sometimes that is an issue. And in some 
cases we do need to get a doctor from the VA to verify, in 
fact, that the disease may be an issue.
    One of the problems sometimes we see is they wait to rate 
all of the cases. Instead of saying, for example, if I'm a 
diabetic and I've come in with retinopathy and neuropathy, as 
well as, you know, all these secondary conditions. If they're 
worried about the secondary conditions, give me my 20 percent 
right away for the diabetic. And then we can talk about the 
rest of them.
    We need to get the system upgraded--but, frankly, all of 
this is useless, and hiring 100, 200 more raters in New York 
would be nice, but their system is so horrible because it's 
paper driven. You have to literally wait for a claim file to go 
from one desk to the next, instead of working off a computer 
system, instead of--I actually took some training in what 
they're going to call the Virtual VA. And I think that was 3 
years ago. They haven't even come close to starting that. And 
that's the real problem.
    Mr. Hall. Thank you, Mr. Rowan.
    I have a question for Mr. Suter, before we run out of time 
here.
    In your testimony, sir, you mentioned the practice of 
brokering claims from regional offices with high claims 
volumes, to regional offices with low claims volumes.
    Do you feel that this is an effective practice, or 
indicative of the need to increase staffing at those offices 
with the high volumes?
    Mr. Suter. I believe it's probably a combination of both, 
sir. Those that are farmed out, compared to those that are 
decided here in New York, because they're from different 
locations, different raters, you may get different decisions.
    And if you've got to argue a case that was sent to 
Philadelphia, as to arguing a case that is in your own hometown 
here in New York, makes it much easier for the veterans, makes 
it much easier for the raters, the VA, everybody concerned.
    One of the problems with farming out, and it's not a 
problem with just farming it out, if you look at every regional 
office in this country you're going to find out that the rating 
standards vary. There's no standard for a broken arm. There's 
no standard for an elbow or a shoulder. There is, if you look 
in the book, but, unfortunately, the degree, the percentage 
assigned, whether it's a 10 or a 20 or maybe because there's 
just a little bit of a hint of something might be there, we'll 
give him a 40. You go to the next regional office, they won't. 
They'll keep him at 20. There's no consistency in rating in 
this country.
    Mr. Hall. Thank you, sir.
    My time is up right now, even though I'm Chairman. In the 
interest of staying on schedule, I'll hand this over to Mr. 
Lamborn for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    I have a question for Mr. Zippo, although, Mr. Rowan, if 
you want to do a follow-up on this, you can, and it's because 
both of you are or have been veterans service officers.
    What can Congress do to make your job work better?
    Mr. Zippo. I would like to see some more funding, because 
we get no funding from Congress at all for training.
    I know there's a bill that's been passed in Congress 
already to fund training and outreach. Well, I know it's held 
up in the Senate right now. But we would love to see something 
like that.
    Mr. Lamborn. Thank you.
    Mr. Rowan.
    Mr. Rowan. I have to harp on the electronics. The ability 
to be able to sit in front of my computer, talk to my client, 
enter the data that's necessary into a system that would create 
the form, and be able to transmit it electronically to the VA, 
and have them accept that. And then once it got to the VA, also 
be able to circulate it in an electronic file system.
    I've been retired now for over 5 years from the City of New 
York, where I was working in the Comptroller's Office. We--I 
reviewed 1,500, 2,000 page contracts daily on a virtual system. 
I could pull that contract up, it was tabbed like a file 
cabinet. I could pull any one of those file pieces out. I could 
review it. Not only that, 10 other people at the same time 
could review the same file.
    I don't see why we can't do that now. I know we can't go 
back and retroactively do the millions of files. But given the 
new veterans coming home, we should be able to start with them 
at least.
    Mr. Lamborn. Thank you both.
    Mr. Chairman, I yield back.
    Mr. Hall. Thank you, Mr. Lamborn.
    We'll now recognize Mr. Walz for 5 minutes.
    Mr. Walz. Thank you, Mr. Chairman. And I thank you all for 
your testimony. And as I said, I think we could replicate this, 
because it's the same things we hear, but I thank you for 
bringing these. And I think it's very important to listen to 
each of you and put a face to this. Let's not forget that this 
is a zero sum proposition we're in. No matter how good we get, 
we can always get better, because if one veteran isn't served, 
it's all of us, and that's an injustice. So I appreciate the 
work that you're doing on that.
    Mr. Suter, I thought you brought up some very good points 
on this. And I think that Mr. Suter was hitting on something 
that has to happen. And I think this possesses the potential to 
be very healthy for this country to have a national dialogue on 
how we allocate resources and what we do for our large 
bureaucracies, or for, in this case, those organizations that 
provide vital services. There are great employers out there. 
There are great organizations, non-profits, faith based across 
the spectrum that are caring and doing things for our veterans.
    The issue that each of you know here is, is that as this 
war ends, and most of us in this room, and I said those wearing 
the hats that have been there understand, as realists, that we 
will probably face this again in the future. It's just the 
nature of the world, be realists on this. We hope for the best. 
We work for the best. We prepare for the worst.
    And in doing this and in the disservice that we do to 
veterans, this system continues to build on itself and 
continues to get worse. And what I would say is the national 
dialogue we're going to have to have is: How do we put the 
resources there? And I can tell you, I don't think this is all 
about putting the money at it. I do believe that's a large part 
of it. But as a schoolteacher, I'm the tightest person you'll 
ever find. I'm going to take the pencils from this hearing and 
everything when we're done. That's the way we work. Because we 
may need them.
    But the issue on this is for the first time in 22 years the 
Independent Budget, and those that are familiar with that in 
here of the veterans service organizations, putting out ``X'' 
amount of veterans are going to need ``X'' amount of care, 
therefore Congress should budget ``X'' amount of dollars, and 
then stand guard over that like a hawk, to make sure that it's 
spent correctly. This is the first time in 22 years we've got 
to that point. But I fear that if we just put money at this, 
without fixing the innate, underlying problems that are there, 
we are going to frustrate the American public. Because the 
American public is willing to use the treasury of this Nation 
to take care of our veterans, but we have to get it right.
    There's just a couple of questions that I've got. I want to 
first go to Mr. Rowan, because of his expertise in this 
electronic side of things. Nothing frustrates us more than 
every time we have these hearings--I was one of you, the 26 
million, that received the letters on the breach of security on 
that. You'll be happy to know that since that time, there's 
been 107 more breaches since, on different numbers.
    We've had numerous hearings in this Congress, and the level 
of frustration that I'm experiencing on this is almost 
unimaginable. One of the reasons I'm so frustrated is I 
represent the Mayo Clinic area of Minnesota that has the Mayo 
Clinic, and they tell me that the electronic medical records, 
the VistA System by the VA, is the best in the world. That 
nobody does this better. They do it better than Johns Hopkins, 
Mayo and all that. Why are we unable to get this transferred 
over? Why are we unable to make the same? Do you have any take 
on that, or is it the same as me and you can't understand it?
    Mr. Rowan. I have--I have no idea, to be honest. I just 
don't. Apparently they've had problems in trying to create a 
system. I think one of the problems, and I worked in 
procurement, and I think one of the problems with the Feds is 
there's a tendency upon agencies to say, oh, we know it better 
than everybody. So we're going to create our own. There's 
probably off-the-shelf software that they could probably go out 
tomorrow and buy, or rent, or whatever it is they need to do to 
create this system. This is not brain surgery. There's an awful 
lot of corporations that do this on a daily basis.
    As I said, 5 years ago I was working in an office that was 
able to scan 1500 page contracts in a matter of minutes because 
they had a high speed scanner, which then allowed everybody to 
access these things.
    I'd also like to jump on Mr. Suter's issue here, about 
relevancy from region to region, from office to office. Because 
I worked in the New York VA Regional Office my personal claims 
go through Newark. I filed, not too long ago, and they finally 
agreed, after a long battle back and forth, that they added my 
hypertension to my--my list of disabilities. However, they gave 
me a zero. Everywhere else we get 10 percent automatic for 
hypertension. And I can't figure it out. I've read the district 
regional office reports that they've sent me back, the 
statements of claim, and I still don't understand where they 
get this from. And that's an easy one. When you start getting 
into PTSD and some of the things that are somewhat more 
objective, it's all across the board. And I've even known, in 
some cases, where people have done claim shopping. For those 
lawyers who know about Judge shopping. Go find a better Judge. 
Some places you go find a better claim.
    One of the things we've had was a lot of Puerto Ricans came 
up to New York, because Puerto Rico is such a disaster area, as 
far as the VA Regional Office down there, that they've 
literally filed their claims up here in New York.
    Mr. Walz. Okay. Thank you.
    My last question, I'm about out of time here, this is to 
Mr. Zippo.
    The CVSOs are I think the veterans' best friends on this. 
They're telling me, since the Health Insurance Portability and 
Accountability Act (HIPAA) laws came in and some of the privacy 
and since this data breach, that there's been a real burden on 
you to be able to get information. You can't even find out 
sometimes if a claim is being simultaneously processed.
    Is that a problem? Are you experiencing that?
    Mr. Zippo. Well, no, because we have the Trip Training, and 
that gave us entry into the VA system, so we can actually track 
the claim, as far as financially where it's going.
    But, you know, Mr. Rowan is right, we--I purchased for my 
office technology, cost $3,000, produces all the forms. We can 
actually send it electronically. The VA just can't accept it.
    Mr. Walz. You did this on your own?
    Mr. Zippo. Yes. We would--I had Trip Training maybe 7 or 8 
years ago, and that was mentioned then, that you can 
electronically send it. But, again, it's 7 or 8 years ago.
    Mr. Walz. But the HIPPA laws didn't slow you down any?
    Mr. Zippo. No.
    Mr. Walz. Very good.
    I yield back to the Chairman.
    Mr. Hall. Thank you, Mr. Walz. And thank you to our first 
panelists for your testimony and for your service to our 
country and to our Nation's veterans. You are now excused, with 
exception of Mr. Rowan, of course.
    Mr. Hall. Joining us, our second panel of witnesses, is 
Alex Lazos, from Harriman, New York; John Rowan, National 
President of Vietnam Veterans of America, and speaking on 
behalf of Ted Wolf of Pomona; and Eddie Senior, from West 
Harrison.
    Thank you all for joining us. Once again, you probably 
notice the little light in the middle of the table that's 
green, you know, for the first 4 minutes, and then it goes 
yellow, when there's a minute left, and red when your 5 minutes 
is up. You don't have to go totally by that, but we're trying 
to stay more or less on a schedule. So each of us will have 5 
minutes, and then 5 minutes of questioning from the panel--from 
the Members to the panel.
    Mr. Lazos, would you like to go first? You're recognized 
for 5 minutes.

STATEMENTS OF ALEX LAZOS, HARRIMAN, NY (VETERAN); TED H. WOLF, 
  POMONA, NY (VETERAN), AS PRESENTED BY JOHN ROWAN, NATIONAL 
 PRESIDENT, VIETNAM VETERANS OF AMERICA; AND EDDIE J. SENIOR, 
                  WEST HARRISON, NY (VETERAN)

                    STATEMENT OF ALEX LAZOS

    Mr. Lazos. Good morning. My name is Alex Lazos. I'm a 
former Marine Corps combat veteran and attained the rank of 
Sergeant during my 5 years as a U.S. Marine. I was part of 
Operation Iraqi Freedom initiative, which became Operation 
Enduring Freedom, and is still going on as we meet here today.
    I enlisted in the Marines directly after graduating high 
school in 1999, and was honorably discharged in August 2004.
    After returning from Iraq, I was experiencing severe mental 
and emotional disturbances, which gradually worsened with each 
passing month. After I was discharged, my grandfather, John 
Lazos, who was an Army paratrooper in World War II and a Purple 
Heart recipient, encouraged me to seek help from the Veterans 
Administration. At the time, I wasn't even aware of what the VA 
had to offer or that its services would be available to me. 
Nobody told me prior to my discharge or after being discharged. 
I was just handed my DD-214 and told, ``Thank you, your 
enlistment is over.''
    I was immediately diagnosed with severe combat related post 
traumatic stress disorder, though the services and treatments 
at the time put in front of me were vague and incomplete. The 
initial process of registering with the VA and trying to 
``navigate'' the system was extremely frustrating, especially 
trying to get to talk to someone face-to-face. It seemed every 
phone call I made would result in me being given another phone 
number. When I was finally given appointments, it would end up 
having nothing to do with what I called about. I would be 
scheduled for a physical, when I had a psychiatric complaint, 
and the medical provider wouldn't even know why I was there to 
see them. This was going on continuously. I got bounced from 
one place and one person to the next, meanwhile my symptoms and 
quality of life worsened and I became more and more depressed 
and suicidal.
    It was not difficult to become disillusioned and 
downhearted considering it appeared there was no prospect of 
ever getting any help. By June 2005, I decided to leave New 
York and try to rebuild my life, hoping a change of scenery 
would be the answer. I chose to go back to North Carolina, 
where I had been stationed. It was a terrible decision, but at 
the time I was not in the right state of mind to make any good 
decisions, and it only made things worse.
    In August 2005, I went to the North Carolina VA Center and 
filed my initial claim for benefits. I remember being told, 
``it is a very long process and to expect to get denied the 
first couple of times.''
    By September 2005, I was evicted, homeless, severely 
depressed and attempted suicide. I returned to New York and 
reentered the VA healthcare system, once again seeking help.
    From then until September 2006, I was in and out of 
inpatient psychiatric wards and drug and alcohol detoxes, 
amassing legal problems, unable to find or maintain work, and 
my life and condition continued to spiral down until I hit 
bottom. Once again considering suicide as a viable option and 
with my life completely out of control, I entered the Montrose 
VA, where I would remain for the next 11 months as a 
psychiatric inpatient.
    In January 2007, I re-filed my original claim and found out 
the VA had given me a rating of zero percent service-connected 
disability from my prior claim. I was treated primarily for my 
post traumatic stress disorder during my stay at Montrose. And 
as the date for my discharge from the Montrose VA neared, my 
claim had still not been processed, yet I have been diagnosed 
with severely disabling PTSD and had been in their system for 
going on 3 years.
    You can't imagine the panic that set in, wondering where or 
how I would live and how I would continue my recovery process. 
I started writing to all the elected officials, and Congressman 
John Hall's office got one of my many letters and contacted me. 
Thanks to his intervention, my claim was expedited and by 
August 2007, 3 years after I had first filed my claim, I 
started to receive my benefits.
    I can't begin to tell you how the quality of my life has 
improved. I can live independently and support myself while 
focusing on my recovery and treatment, and I can finally start 
rebuilding my life that's been on hold for over 3 years.
    I don't understand why it had to take so long to get help. 
I don't understand how the VA could instantly recognize that I 
have a serious disabling condition as a result of my military 
service, yet took 3 years to process my claim and compensate me 
for it. My experience with the VA and the claims process has 
been a battle in and of itself, and having returned home from 
one war to fight another one with an organization that was put 
in place with the sole purpose to serve veterans like myself is 
incomprehensible still to me.
    I also believe that the full and complete funding should be 
granted to the Veterans Administration in support of increasing 
space and duration of programs, an increase in available 
services and manpower, and the implementation of long lasting, 
effective changes to better serve and benefit our ever growing 
veteran population. The claims process needs to be expedited 
for everyone, and funds to pay disability and compensation 
benefits need to be made available.
    I see a lot of finger pointing and blame going on in 
politics today over this war and the results of a decision made 
in 2003. Well, that was 4 years ago, the war's still going on 
and assigning blame isn't going to change a thing. This isn't a 
time for blame. It's a time for change. And, unfortunately, 
whereas war can be declared overnight, the results will last a 
lifetime. And for the servicemen and veterans whose lives 
literally hang in the balance, these issues need to be 
immediately addressed. And despite my relief at having my life 
back, the guilt that I feel that I've gotten these benefits, 
while so many of my fellow veterans continue to suffer, is only 
comparable to the survivor's guilt that I feel for surviving 
Iraq, while so many haven't.
    I would like to reiterate something often lost in the 
endless shuffle and re-filing of paperwork and political 
bickering: Generations of Americans have volunteered to make 
extreme personal sacrifice, sometimes at the cost of their own 
lives, to defend and ensure the integrity and future of the 
United States of America, and as veterans we are asked to pick 
up a weapon and lay down our lives for our country without 
question. Shouldn't our treatment on returning home reflect 
nothing less? I feel that our troops deserve the same level of 
loyalty and commitment from the Veterans Administration as we 
were asked to give when we put on our uniforms and swore an 
oath to our country.
    Thank you and God bless the United States of America and 
the men and women who protect it.
    [The prepared statement of Mr. Lazos appears on p. 56.]
    Mr. Hall. I apologize for mispronouncing your last name, 
Mr. Lazos.
    Mr. Lazos. It's okay.
    Mr. Hall. Before we go to Mr. Rowan, I just want to quote 
your question: ``Shouldn't our treatment on returning home 
reflect nothing less? I feel that our troops deserve the same 
level of loyalty and commitment from the Veterans 
Administration as we were asked to give when we put on our 
uniforms and swore an oath to our country.'' That's a very well 
put sentence.
    Mr. Lazos. Thank you.
    Mr. Hall. Mr. Rowan, speaking for Mr.----
    Mr. Rowan. Mr. Ted Wolf.
    Mr. Hall [continuing]. Mr. Ted Wolf.
    Thank you, Mr. Rowan.

                   STATEMENT OF TED H. WOLF,
                   AS PRESENTED BY JOHN ROWAN

    Mr. Rowan. Yes. I'm going to be reading his statement.
    My name is Ted Wolf. I'm a Vietnam veteran. I served in 
Vietnam from September 1966 through August 1967. I was in a 
transportation unit stationed at the Newport facility on the 
Saigon River. One of the operations of the facility was the 
handling of Agent Orange drums. As is well known and well 
documented, Agent Orange is the Code name for a herbicide 
developed for the military. The purpose of the product was to 
defoliate trees and shrubbery where the enemy could hide. My 
exposure to broken drums containing Agent Orange caused me to 
become inflicted with prostate caner.
    My prostate cancer did not become ``active'' until August 
2002. However, even before then my family and I experienced 
other effects of the Agent Orange. In the 1970s, my wife 
suffered 7 miscarriages. Furthermore, my only living daughter 
was born with a hemangioma. We now believe that both of these 
events were related to my exposure to Agent Orange.
    My prostate cancer was diagnosed by a urologist in August 
2002. I immediately went to Memorial Sloan-Kettering Cancer 
Center for further information, and eventually treatment. One 
way in which doctors rate the aggressiveness of prostate cancer 
is through a Gleason score. A patient is graded on a scale of 1 
to 10. I was diagnosed with a 9. At Sloan-Kettering I was 
treated with localized radiation, as well as hormone therapy.
    Sometime during the course of my treatment, I investigated 
and found out that Agent Orange was a cause of prostate cancer. 
I submitted an application to the Veterans Administration for 
disability compensation on account of my diagnosis of prostate 
cancer. In April 2003, after enduring a physical and sending my 
medical records from Memorial Sloan-Kettering, I was granted a 
disability rating of 100 percent.
    In February 2004, my disability rating was lowered to 40 
percent. I was informed that this reduction in benefits was on 
account of the fact that I was not utilizing the required 
number of pads for leakage each day and also because my PSA 
score (a number used to determine the presence of prostate 
cancer) had declined. On account of these 2 factors, the 
Veterans Administration deemed that I was in remission.
    I did not feel that this was fair, but I did not have the 
strength to commence an action. In preparing for this hearing, 
however, I spoke with my oncologist at Memorial Sloan-
Kettering, Dr. Michael Morris. Dr. Morris explained to me that 
the Veterans Administration's reasons for reducing my benefits 
were absurd. First, he said there is absolutely no correlation 
between number of pads used for leakage and the severity of 
prostate cancer. Second, he explained that although my PSA 
number had decreased, I was not actually in remission. Rather, 
he explained, that there is a residual effect from hormone 
therapy, which keeps the PSA down for approximately 2 to 3 
years. What is disturbing is that the Veterans Administration 
handled my case without having any knowledge of my illness and 
it made decisions without any basis in fact.
    In May 2006, my PSA tripled, indicating that the disease 
was still active. Bone scans taken in August 2006 indicated 
progression to 8 different spots on my skeleton. At this point, 
I contacted the Veterans Administration. They asked me to send 
proof, which I did, and they then responded by saying that it 
would be a minimum of 3 to 4 months before any action was taken 
on my case.
    The county in which I live, Rockland County, New York, 
maintains an Office of Veterans Affairs. I contacted them for 
assistance, and they recommended that I contact my 
congressperson. The office of the congressperson attempted to 
assist me; however, she was defeated in the November 2006 
election, and therefore no real action took place.
    In January, I contacted the newly elected congressperson, 
Representative John Hall, and his office rendered immediate 
assistance. The person in his office who assisted me was Lisa 
DeMartino. She worked miracles, and within 3 weeks, the 
Veterans Administration increased my compensation and gave me 
back compensation from June 2006.
    My concern is that without the assistance of wonderful 
people at the congressional level, the average veteran is 
forced to wait a long period of time to get any assistance. I 
pay for my own healthcare. Our family rate is $14,000 a year, 
and I am able to select where I want to be treated for my 
illness. Under no circumstances would I want to be treated at 
the Veterans Administration. I do not believe that their level 
of competency for treating my disease would have reached an 
acceptable level. I have no confidence in them, especially in 
light of the fact that they lowered my initial benefits, 
thereby showing that they had no idea of how prostate cancer 
functions.
    My concern is for the young veterans returning from Iraq 
and Afghanistan. The backlog that they face in receiving care 
is unconscionable. Competent healthcare should be available to 
all veterans. We currently have in place the Medicare system 
which allows one to select his/her own doctor. This would allow 
a veteran to find medical care close to home, without having to 
travel to a VA facility. The closest VA facility may be many 
miles away, perhaps requiring an overnight stay.
    The Veterans Administration has for too long been allowed 
to defend its bricks and mortar policy of large facilities, 
which, until the war, were inadequately used. I feel that the 
American servicemen could best be served by being able to avail 
themselves of the best private care available.
    I want to thank this Committee for investigating the 
Veterans Administration and the healthcare being provided to 
our returning veterans. A service person who has volunteered to 
serve his country should receive the best possible care 
available, regardless of cost. Their benefits, if unable to 
continue to work, should be such that they are being paid a 
living wage to take care of their families. Those that have 
given so much should not be forced to continue to pay for their 
willingness to serve their country. Our troops who served with 
pride and distinction should not have to beg for adequate 
healthcare. It is our continued responsibility to provide the 
best healthcare possible whether within the VA healthcare 
system or the private sector.
    As a postscript, I might add that it's known that Vietnam 
veterans are 3 times more likely than their peers to get 
prostate cancer.
    [The prepared statement of Mr. Wolf appears on p. 58.]
    Mr. Hall. Thank you, Mr. Rowan. And I especially thank you, 
Mr. Wolf. Blessings to you and your family.
    We now recognize Mr. Senior for 5 minutes.

                  STATEMENT OF EDDIE J. SENIOR

    Mr. Senior. Congressman Lamborn, Congressman Hall, 
Congressman Walz, thank you very much.
    Good morning. I'd like to introduce myself. My name is 
Eddie Senior. I come before you today in the hope of getting 
the much needed help with regards to my disability claim, as 
well as the claims of many other veterans. I also wish to share 
with you my personal experiences with the Veterans 
Administration and the hardships and frustrations of the VA 
claims backlog.
    I served in the Army from January 1985 to March 1993. I was 
deployed for Operations Desert Shield and Desert Storm in 1991 
with the 101st Airborne Division. Up until that time, I never 
had an issue with my health. I served as a helicopter crew 
member, which required a yearly flight physical and was 
considered to be in excellent health. Shortly after returning 
from the Persian Gulf, my health began to decline. The Army 
doctors were unable to properly diagnose my illnesses. Over a 
short period of time I became unable to perform my duties as a 
Sergeant in the Army, and because of my health problems, was 
forced to leave the service.
    After leaving the service, my symptoms persisted and my 
health continued to decline. I eventually received a letter 
from the VA urging me to come in for an examination because of 
my service in the Persian Gulf. During my initial visit I was 
examined by a VA doctor and was asked to talk about my 
conditions and symptoms. He quickly dismissed them as something 
that was ``all in my head'' and that I was fine. I continued to 
go to the VA Hospital in the Bronx, and received several tests 
and examinations. It was during this time that I was advised by 
the personnel in the compensation office where my exams were 
scheduled, that I should file a claim with the VA based on my 
current condition. They suggested that I do it as soon as 
possible, considering the long amount of time it would likely 
take to receive a decision. My initial claim was filed in early 
1995.
    In October 1995 I noticed a lump in my neck. I immediately 
went to the VA Hospital Emergency Room. After being told by the 
doctor that I should not have waited so long to come in, I 
explained to him that I have been coming to the VA Hospital for 
about 8 months, and that I've been told over and over that 
there was nothing wrong with me.
    After further examinations and a surgical biopsy on the 
lump, it was discovered that I did, in fact, have something 
wrong and that it was very serious. The surgeon who did the 
biopsy said that she saw something that she had never seen 
before. She requested that a specialist be brought in to help. 
The second doctor performed 2 more surgeries; the first to 
diagnose, and the second to remove the cancer that had been 
found. The third, and final surgery, scheduled for 1\1/2\ to 2 
hours, took 9\1/2\ hours because of the severity of the cancer. 
During my post-operative care, the surgeon explained to me what 
he had found, and that he had never seen a case of thyroid 
cancer as severe as mine. I had hoped this would solve my 
health questions, but soon realized that this was not the case. 
My symptoms, which include fatigue, headaches, respiratory and 
psychological problems, continued and worsened.
    Prior to the discovery of the cancer, I was denied VA 
benefits for my symptoms for lack of evidence proving service 
connection. Soon after the diagnosis of the cancer, I was 
awarded a non-service connected improved pension. On the award 
letter for the pension it was stated that I was being awarded 
50 percent for depressive disorder, and 100 percent for thyroid 
cancer and fatigue, dizziness, concentration difficulties and 
headaches. I was given the 50 percent psychological rating as a 
result of a Compensation and Pension (C&P) exam that was given 
to me in December 1997. Unknown to me, the examining VA doctor 
stated in his report that this condition was ``directly 
associated'' with my military service. This should have given 
me a ``Service Connected'' rating of 50 percent for this 
symptom. I contacted the VA Regional Office, and was told that 
the pension was the best decision that I could get.
    It wasn't until I contacted the Westchester County Veterans 
Service Office and reviewed my records, both in-service and VA 
medical, with the veterans representative that I was made aware 
that the decision and rating I was given was incorrect.
    I resubmitted my claim to the VA in August 2005, stating 
the facts and resubmitting evidence related to my claim. 
Approximately 1 year later I received another denial. My 
Service Officer then assisted me with submitting a Notice of 
Disagreement. After waiting almost another year, I was 
scheduled for my second C&P exam at the VA Hospital in May 
2007. After waiting for the exam report to be completed, I 
requested a copy from the VA. I read through it and noted 
statements made by the examining doctors, where they concluded 
my conditions started and/or were caused by my time in service.
    With this information in hand I truly believed, as did my 
Veterans Service Officer, that I would receive a service-
connected disability rating of 100 percent retroactive to my 
date of discharge. Unfortunately, this was not the case.
    I recently received an award letter from the VA notifying 
me of their decision to grant me a 60 percent service-related 
rating for Chronic Fatigue Syndrome.
    While waiting for a decision, and in agreement with my 
Veterans Service Officer, I contacted the office of Congressman 
John Hall, to seek assistance with this matter. A letter on my 
behalf from Congressman Hall's office was given to the VA, 
asking them to review my records, including documentation of 
medical records indicating service connection for psychological 
conditions that were earlier documented by the VA. Also service 
connection dating back to my date of discharge with regards to 
the opinions of the VA medical doctors. This letter was a 
reflection of the beliefs of my Veterans Service officer that 
this claim is not being given the proper rating or retroactive 
date.
    The recent Decision Letter, dated September 7, 2007, made 
no mention of the psychological condition, and the disability 
rating of 60 percent for the Chronic Fatigue Syndrome was only 
backdated to September 2005, instead of March 1993. This 
decision will now require yet another appeal. The information 
in my claim file clearly states, on VA medical doctor reports, 
that my condition manifested in-service, was caused by my 
service, and persists today to a degree that is considered 
totally disabling according to VA Regulations. As noted on the 
Letter Of Decision, the examiner also stated, ``That your 
Chronic Fatigue Syndrome accounts for your array of muscle 
pain, joint pain, difficulty concentrating, respiratory 
problems and sleep disturbance.'' These are the same symptoms 
that I have been repeatedly denied service connection since my 
initial claim in 1995. On Page 4 of the C&P exam report it 
states, in comment one, that my symptoms in-service are more 
suggestive of Chronic Fatigue Syndrome. This statement proves 
that the condition was present while I was still in the 
service. I do believe that if these facts were recognized, a 
continued appeal on my behalf would not be necessary and I 
would have been awarded the correct disability rating and 
retroactive date.
    This is just an example of the frustrations experienced by 
many veterans who file claims with the VA.
    As I stated earlier, I find myself needing to file yet 
another appeal. This will only delay the process yet again. It 
has been explained to me that this appeal to the Board of 
Veterans' Appeals could, and most likely, will take 
approximately 2 more years to have my hearing, with even more 
time for a decision. It is these kinds of delays that cause 
extreme frustration and stress, as well as financial hardship 
for many veterans.
    I have personally been waiting 12 years to settle this 
matter, and hope by coming here today to speak about my case 
that I will be able to get the help needed to finally bring 
closure to my claim.
    In closing, I would like to thank you for your time and 
attention to this urgent matter of importance to myself and the 
many other veterans who find themselves in the same situation.
    Thank you.
    [The prepared statement of Mr. Senior appears on p. 59.]
    Mr. Hall. Thank you, Mr. Senior.
    I'll kick off the questioning by thanking you and thanking 
you all for your service; Mr. Rowan, and Mr. Wolf, who's 
absent.
    Mr. Lazos, Alex, I wanted to ask you, you mentioned in your 
testimony that you were not made aware of the VA services at 
any point during your discharge.
    Mr. Lazos. No, I wasn't.
    Mr. Hall. When and how do you believe that soldiers should 
receive this information?
    Mr. Lazos. I think there should be continuity straight from 
the service into the VA. I think you should be, upon your 
discharge, basically given directions to the VA that you're 
going to be going to, to get evaluated, to evaluate whether or 
not you have any service-connected conditions immediately upon 
your discharge.
    Mr. Hall. So what they call a seamless transition should be 
more than just handing over information from DoD to the VA, but 
also the soldier, who is leaving active duty and becoming a 
veteran, should be told at that time all of the options and all 
of the help that's available to them?
    Mr. Lazos. Yes. Definitely.
    Mr. Hall. What difference would it have made in your life 
if you had received your rating and benefits within one or 2 
months of filing your claim?
    Mr. Lazos. I couldn't--I really couldn't even begin to 
describe the difference it would--like I had to go through 
several hospitalizations, maybe over a year of inpatient, 3 
suicide attempts, legal problems, financial problems until I 
finally got it. If it was immediate, I wouldn't--I wouldn't 
have ever gotten into that much of a hole in my life to begin 
with. I'm lucky I'm still alive right now.
    Mr. Hall. Thank God. I'm glad to see you. Glad to see you 
are. Glad to have you here.
    Mr. Senior, you stated that in 2005, after you resubmitted 
your claim to the VA, it was once again denied. What were the 
reasons for this denial? Did the VA offer any assistance as how 
you might be able to obtain your benefits?
    Mr. Senior. They just stated that I didn't prove service 
connection, and they continued my approved pension that I was 
receiving.
    Mr. Hall. You also stated that delays and a strung-out 
appeals process causes financial hardships for many veterans. 
Could you elaborate a little more on the nature of these 
financial hardships?
    Mr. Senior. Legal matters. Finance--I've had to claim--I've 
had to claim bankruptcy in the past. You worry about your 
family. If you have children, like I do, you worry about them. 
You know, that's my number one concern. You know, for me, I 
volunteered to go, if something happens to me tomorrow, so be 
it. I have to worry about my family first, and that's my main 
concern.
    Mr. Hall. Mr. Rowan, maybe you could take a shot at what 
you think Mr. Wolf would say if he were here, or what you would 
say about these questions.
    Mr. Rowan. Well, in Mr. Wolf's case, I think that he laid 
out serious problems that he had in this case with VA 
healthcare. I think there had been some problems. And I know 
that one of our members up here goes to the Albany VA and was 
half tempted to sue because the doctors made serious mistakes. 
When he went down to Sloan-Kettering, they operated on his 
prostate almost immediately. The VA kept telling him, oh, come 
back. Don't worry about it. Your PSA's been all right. Just 
very bad doctoring. If I could, because of the experiences with 
the Vietnam veterans and post-traumatic stress disorder, we 
know that the first 5 years are the most crucial years of 
coming out of the military. And Mr. Lazos's case was, 
unfortunately, very similar to many of my friends. I always say 
I know more people who died after the War than in the War, 
between suicides and drug overdoses from the neighborhood I 
grew up in, in Queens. And that was a problem endemic across 
the country, which is why we focus so much, and why the 
Congress gave at least 2 years of free healthcare in the 
beginning. I know there's a discussion to extend it to 5.
    But the evaluation issue is very important. And I know that 
the Chair and Congressman Filner have been talking about some 
sort of reverse boot camp, when people come back from the 
military, to go back through a process to get them to become 
civilians. And certainly Mr. Senior's problems, unfortunately, 
were, again, endemic of, again, modern warfare; where people 
are being exposed to things. It's--you know, it's bad enough 
you duck bullets, but how do you duck a silent gas? How do duck 
depleted uranium that's been atomized and put into the air? How 
do you duck burning oil wells? How do you duck all of that soup 
of all of that toxic stuff you're breathing in every day and 
walk home with parasites? We are only just finding out now 
about a parasite from Vietnam that is killing people in their 
fifties and sixties, and it was in the water. So for those 
grunts who were out in the boonies all the time and literally 
drank water out of the creeks and rivers, they're now coming 
down with these parasites that they carried with them all this 
time, and they're now killing them.
    Mr. Hall. John. Thank you. Excuse me for interrupting you, 
but we have limited time here.
    I wanted to ask one more question, and if each of you could 
give a brief answer to this, it would be helpful. This was 
based on Mr. Wolf's testimony. But what do you think can be 
done to bridge the gap between disability ratings, VA 
compensation and private healthcare?
    Mr. Wolf talked in his testimony about the need to be able 
to access private healthcare if the VA is unable, can't catch 
up timewise or can't deliver the quality of care that is 
needed. And I know, Alex, that you received some private care?
    Mr. Lazos. Yes.
    Mr. Hall. Do you think it would have been helpful for you 
to be able to receive private counseling or healthcare?
    Mr. Lazos. Definitely, because it's--it's really not so 
easy to go from VA to VA. And it's, like you said, basically 
you could go to a private provider and have the VA cover your 
expenses, it would be a lot more convenient, at the very least.
    Mr. Hall. Mr. Senior, the disability rating, VA 
compensation and private healthcare, is there a gap in there 
that maybe we could try to bridge?
    Mr. Senior. Well, I've become--I became discouraged with 
the VA doctors. Not all of them. There are some very good ones. 
So I went outside to civilian doctors. And the first thing they 
did, when they looked at me and looked at my records is, you 
know, what do you have? When I explained what I have, they 
always say, what else? And after looking at my records, they 
just looked at me and say, I can't even begin to take care of 
you, because I don't know what happened to you, what you were 
exposed to. And the things that we're exposed to, they--they 
normally don't work with.
    And I did have one doctor who I went to once. He saw me, 
looked at me and he's just shaking his head and asking me, 
what, what did they do to you? What's wrong with you? He says, 
let me look at your records from the VA Hospital. I'll get them 
and I'll speak to you. He got them. And I went in to see him 
the next time, the first thing he said was, oh, the doctor in 
charge is an old friend of mine. You're fine. That was the last 
time I saw that doctor.
    These are the things we go through. The doctors outside the 
VA are unsure of what--how to diagnose and treat us because of 
the things we have. And it's just tough. There's no information 
coming out of the VA hospital on these conditions, so they 
don't even know where to begin. So your only option is the VA 
hospital. You go there, and, well, we know how that works, so.
    But, again, not all the people at the VA are bad. There's 
very, very good doctors, very good people that work there. It 
could be regulations. It could just be the ways things are 
handled. I don't know how VA works, but hopefully after today 
this is a start to correcting those problems.
    Mr. Hall. I'm going to turn over the microphone to Mr. 
Lamborn for some questions.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Just one real quick question. Mr. Lazos, there is the 
Transitional Assistance Program to help counsel veterans before 
they're--excuse me, servicemembers before they're separated as 
to the benefits that are available, but it doesn't sound like 
they did a very good job of making that known to you, because 
apparently you weren't----
    Mr. Lazos. No, not at all.
    Mr. Lamborn [continuing]. You didn't even know that was 
available.
    Should they do a better job of publicizing that, or what? 
What would you suggest?
    Mr. Lazos. Well, when I was--I was discharged, in 2004, and 
that wasn't really much of a priority like it was basically 
like, here's the end of your enlistment. Thank you. And that 
was it. Now it seems that they are trying to do a better job 
with that; directing people toward the VA. I'm just talking 
about my personal experience. But I believe that it should be a 
main issue. It should be a focus.
    Mr. Lamborn. Thank you.
    Mr. Hall. Mr. Walz.
    Mr. Walz. I do believe Mr. Lazos is right on that, and that 
it is improved. I know when my unit deployed in '03 and '04 and 
came back into a large room, we had about 36 hours of out-
processing total, and they showed us, The Horse Whisperer, and 
said, there, learn that lesson. And I'm not sure what it was 
still to this day. But that was what it was. We've gotten much 
better at this. It's lessons learned.
    I'm proud to say in Minnesota we have a program called 
``Beyond The Yellow Ribbon,'' that's the prototype that'd we 
like to take to the rest of the country on how we're out-
processing, how we're doing our counseling at 30, 60 and 90 
days. So I think we're getting better. And it was mostly out of 
the desire to when a soldier came home, they would tell you 
this, just leave us alone and let us go home. That's not the 
best way to treat it though.
    And on behalf of this panel, and as a retired CSM, to each 
of you, I apologize for the way you've been treated. This 
Nation would not stand for it. And we have to get to the root 
of what this is.
    Just 2 quick questions on this. And I know this is somewhat 
subjective, but I think it's important to get it from you. Why 
do you think working with the VA is so difficult? I mean, what 
is your gut feeling on why this is so difficult? Why does it 
have to be this way? And because that's the one thing I'm 
trying to get at. Because they say, when they--we get people 
who testify in front of us, and they tell us they're doing 
everything they can to reduce the backlogs. They tell us 
they're doing everything. And I know these are good people. 
They serve--they're trying to spend their lives helping 
veterans. But then I hear things like, I had testimony, and we 
had this written down here, the VA responds, well, sometimes 
the problem is you guys don't fill out the paperwork right. And 
things like that. That's the answer they give. Or I get a 
veteran that says he was complaining about the 11 cents a mile 
reimbursement. We, by the way, get 48 cents a mile. Isn't that 
convenient how Congress did that. They got that done. But the 
11 cents--and the person told them to get a more fuel efficient 
car. He said he was lucky that he was there for a hip 
replacement or he would have crawled across the counter and 
whipped the guy for saying that.
    My question to you is: Why do you think it is? What is 
your--what is your gut feeling on this? Because this Nation is 
appalled by these stories. This Nation does not want this to 
happen. And your representatives are doing everything we feel 
we can or want to know.
    What do you think it is? If you just have a gut feeling.
    Mr. Lazos. Personally, I feel like no one was prepared to 
be dealing with the repercussions of declaring another war. And 
now, with all the returning vets, in the hundreds of thousands, 
with all the vets from Vietnam, there's still World War II and 
Korea, I think the VA's just overburdened.
    Mr. Walz. Mr. Senior.
    Mr. Senior. Yes, I agree, the same thing. You know, we live 
in a computer age, and spoke earlier, maybe computers, 
something with computers to help streamline it. Because I got 
my file, after the denial, and I went through it, it took me 10 
minutes to read where the doctors said yes, yes, yes, yes. And 
then I get a denial saying, no, no, no.
    Mr. Walz. Mr. Rowan, you got the most experience with this 
of anybody here.
    Mr. Rowan. Where do I begin? I think it's all money. I 
think it's always been money. And just not allocating over 
time, over many years. I mean, you're making--you're playing 
catchup very well in Congress, but it's hard to take back.
    I also think that this was a system that said, oops, the 
World War II veterans, who had this big bulge of service needs, 
are all going away. They're dying off at a rate, they're all 
going to be gone soon. We don't have to worry about anything. 
We can downsize everything. And I think they've lost the staff. 
They've lost the medical staff. They've lost the raters staff. 
They've lost them all.
    Also, if you even assume that this is a bowl because of the 
new recent veterans, back in the Vietnam era, in the seventies, 
we had fee provider-based programs for PTSD, where the VA would 
literally hire private-sector psychologists and psychiatrists 
to service veterans. And the veteran can go, get analyzed, go. 
You know, the VA said, yes, we agree that they need treatment. 
The VA was paying these doctors, so they didn't have to put 
them on the payroll and didn't have to say, we're going to have 
them for the next 35 years, until they retire. But we need them 
now to handle this immense caseload. And we could do that 
again.
    Mr. Walz. I'll give you one quote from the Dole-Shalala 
Commission on the fallout from Walter Reed. Senator Dole made a 
comment, and he was very clear on this, he said, ``we spent 
billions to put them in harm's way. Spend what's necessary to 
get them out of it.'' So I think that's something we need to 
do.
    Mr. Hall. Thank you. Thank you to this panel.
    To our second panel, thank you for your service to our 
country and to our veterans. You are now excused.
    We'll ask Congressman Maurice Hinchey to come to the 
witness table and introduce our next panel, who is a veteran 
constituent of his.
    Is Congressman Hinchey still here?
    Voice. While there's a delay. After a hearing in February, 
I think, I went over to the Veterans----
    Mr. Hall. I'm sorry. We're not going to take any comments 
or questions from the floor.
    There will be a press opportunity after we're done, but 
right now we're going to move ahead.
    If Mr. Hinchey's not here, we're going to move right to our 
third panel. I'm sorry, but that's just the way we do things at 
official Committee Hearings.
    Voice. All right.
    Mr. Hall. Congressman Maurice Hinchey, as you may know, is 
a veteran of the Navy.
    Congressman Hinchey, would you like to have the rest of 
your panel join you now, or would you like to speak about them 
first?
    Mr. Hinchey. I'll take your direction on that, Mr. 
Chairman.
    Mr. Hall. Why don't you tell us about them first.
    Mr. Hinchey. They're about to be here, so I'll be happy to 
do that.
    Mr. Hall. Okay.
    Mr. Hinchey. First of all, I want to express my 
appreciation to you.
    Mr. Hall. You can wait, because Sergeant Ryan is coming in.
    Mr. Hinchey. Okay.
    Mr. Hall. Joining us is, as well as Congressman Hinchey, is 
Eddie Ryan, from Ellenville, New York, accompanied by his 
parents, Chris and Angela Ryan.
    We'll take our places. Welcome, Eddie. Sergeant Ryan, good 
to see you again.
    Mr. Eddie Ryan. Don't salute.
    Mr. Hall. Yes, sir.
    Mr. Eddie Ryan. I'm not an officer.
    Mr. Hall. Well, I salute your courage and your bravery and 
patriotism and service to our country.
    Mr. Eddie Ryan. Thank you.
    Mr. Hall. I'd like to recognize your Congressman, Maurice 
Hinchey.

          OPENING STATEMENT OF HON. MAURICE D. HINCHEY

    Mr. Hinchey. Thank you very much, Mr. Hall, and thank you 
very much, gentlemen, also, for being here. I want to express 
my deep appreciation to you for conducting this hearing because 
of the attention that you're focusing on this issue. And the 
example we have here today, of Eddie Ryan, a member of the 
Marine Corps, who was wounded in Iraq, seriously wounded, 
almost killed, and the circumstances that he and his family 
have confronted are issues that really need to be addressed, 
and they need to be addressed by the Congress, by this 
Administration, and specifically by the Veterans 
Administration.
    Let me just give you a brief history of what--what occurred 
here. Eddie Ryan graduated from high school and enlisted in the 
Marine Corps. He went to Iraq. And he was there the second time 
around. He was on a specific mission, with his colleagues. They 
were on a rooftop, in a difficult and dangerous area, and he 
was shot twice in the head. He was taken care of immediately by 
his colleagues around him. And the respect that they had for 
him enabled them to engage in the right kind of activities that 
essentially saved his life. He was shipped into Germany. He got 
the proper medical attention there. He came here, came back to 
the United States, got proper medical attention here. But then 
he went to a Veterans Hospital down in Virginia, and the 
quality of the healthcare then began to decline. His parents, 
of course, had paid enormous attention to him from the very 
beginning. They went to Germany, when he was in the hospital 
there. His mother attended to him when he was in the Veterans 
Administration hospital down in Virginia, and she did so 
because he was getting inadequate attention.
    There was also the issue of how this even occurred. At the 
request of his family, my office began an investigation into 
the basic circumstances. And we inquired as to why a man who 
was wounded, as he was, was not being awarded the Purple Heart. 
And over a period of time, that occurred; he received the 
Purple Heart. And then we learned also that the wounds that he 
suffered were the results of what is referred to as ``friendly 
fire.'' He was shot by our own people.
    The situation now is that you'll see, as--as you get a 
chance to listen to him and to his family, the situation now is 
that you're dealing with a United States Marine, a man of great 
ability, great devotion to his responsibilities to his country, 
to his obligations as a member of the Marine Corps, who has 
suffered 2 bullet wounds to the head, and because of his 
internal strength, which is absolutely marvelous, he is making 
extraordinary recoveries. You and I, John, have had the 
opportunity to see that. We both visited him at his home in 
Ellenville. And when I saw him again this morning, I was struck 
by the kind of progress that he's making. The kind of 
intellectual progress he's making, the kind of increased 
articulation he has and the ability to express himself. The 
kind of sense of humor that he still maintains, in spite of the 
dire circumstances that have confronted him. This is an amazing 
human being. A remarkable person.
    And the tragedy is that he has consistently not received 
adequate attention from the Veterans Administration, in terms 
of the healthcare that he needs, in terms specifically of the 
continued therapeutic circumstances that he is fully entitled 
to and must receive. These therapeutic circumstances are the--
the means by which he is going to be able to achieve full 
recovery. And I mean particularly physically. Because he's 
already--I think he's already back intellectually. I mean, he's 
just amazing. And you will have a chance to see that yourself. 
But he should be given every available therapeutic assistance, 
so that he can use his limbs, he can walk, he can use his arms, 
he could recover his full physical strength.
    What does he want to do with his life right now? Well, what 
he wants to do is to continue to be a Marine. He wants to 
continue to serve his country. So he is an exemplary American 
citizen, and an exemplary member of the American Marine Corps.
    And I tell you, very frankly, I'm deeply honored to 
represent him. And I'm very proud of the way in which his 
family has worked with him, and how they have involved us to 
assist them in bringing the kind of attention that he needs to 
get over this disability, which was inflicted on him in the 
circumstances of that military occupation in Iraq.
    So, once again, I just want to thank you very much for 
being here, focusing attention on this issue. When you hear 
people say, we need to support the troops. You wonder what 
level of sincerity is behind that statement. And, frankly, I 
see deep levels of insincerity behind it very, very often.
    The best way to support our military personnel is to make 
sure that when they are the victims of adversarial 
circumstances, that they get the best possible treatment. We 
have the ability to do it. We need to make sure that that's 
what they get. So thank you very much for being here. And, 
Eddie, it's a great pleasure to be with you again.
    Thank you, my friend.
    Mr. Eddie Ryan. Thank you.
    Mr. Hall. Thank you, Congressman. Safe travels, and the 3 
of us will see you later this evening.
    Now we'll recognize Marine Sergeant Eddie Ryan and Chris 
and Angela, his parents, for whatever presentation you'd like 
to make for us.

 STATEMENT OF CHRISTOPHER AND ANGELA RYAN, ELLENVILLE, NY, ON 
            BEHALF OF SERGEANT EDDIE RYAN (VETERAN)

    Mr. Christopher Ryan. Well, I'd like to introduce my son, 
Sergeant Eddie Ryan.
    Mr. Hall. Could you use the microphone, please? Just pull 
that microphone over, please.
    Mr. Christopher Ryan. I'd like to introduce our son, 
Sergeant Eddie Ryan, who trained very hard to become an elite 
Marine sniper. All of his Marines, even up to a Major General 
Huck, has told us that his courage and bravery was unmatched in 
combat situations.
    And on his second tour of duty he did get wounded. And like 
the Congressman stated, the care was unbelievable through the 
military hospitals, from Germany, and they stabilized him in 5 
days, and we were flown to Bethesda, on a low military flight 
because of his brain injury, and he fought for his life. Day by 
day he fought for his life. And thank God he--he pulled out of 
it. Day by day he got stronger and stronger. We spent about 5 
to 6 weeks in Bethesda. The military hospitals were incredible. 
There was an urgency there. They--they cared for Eddie, the 
young capable Navy nurses and Navy Corps men. They never left 
his side. And we have nothing but good things to say about the 
military hospitals and our military.
    But we were warned, before we left Bethesda, when we were 
going to be turned over to the VA, we were warned by the 
military, and we were warned by other parents of the wounded, 
that the care would drop down significantly. And our question 
was: Why? Our son just got out of a coma. He was in a drug-
induced coma for 4 weeks. And he--in 4 weeks he--he was weaning 
off, himself, he was breathing over life support, which was an 
amazement, even to the doctors. He was not supposed to live. 
Then they said he would never have a memory. He would--he would 
never get off of life support. We'd be taking just a bodily 
form home. And thank God he--he proved all the doctors wrong.
    But when we got into the VA, we surely knew what exactly we 
were being warned about. In the McGuire Hunter VA the care 
dropped down drastically.
    This Marine, 2 years ago, was on a belly tube, had a trach 
in his throat, had shunts coming out of the back of his head, 
tubes going up his nose. And now he has nothing.
    But when we went down to the VA, he had all of this, he had 
all of this stuff attached to him. And he would only eat--his 
means of eating was through a feeding tube, and they were 
missing the meals. And we brought this to the nurses' 
attention. We said, listen, you know, he didn't have lunch yet. 
He's supposed to eat 3 times a day. And from that point on we 
were--we faced an opposition in the VA.
    What else happened down at the VA?
    Ms. Angela Ryan. He suffered a bedsore from laying in his 
own feces.
    Mr. Christopher Ryan. Oh, yes. That's another thing, the 
bedsore. You know, he was free and clean. He wasn't moving. He 
was not capable of moving. So, you know, he was in a diaper. He 
had to be changed and everything. And we'd bring this to the 
nurses' attention, and they'd take their time. And, sure 
enough, in a few weeks he came down with a terrible, infected 
bedsore. He was on an I.V. antibiotic drip for 6 weeks. This 
slowed down his therapies. It slowed down his whole process 
of--of getting better. We even saw a time of regression in 
Eddie. And we said, something's got to be done.
    Our brother, we were too busy at the time, contacted his 
Congresswoman, Sue Kelly. And between his Congresswoman and our 
Congressman, we actually had to fight to get him out of the VA, 
to put him in a private facility, which was Helen Hayes 
Hospital, where his--his care went up, because these nurses in 
this hospital, when they don't do their job, they're relieved 
of duty. Not so in the VA. In the VA we had problems with 
nurses. And I'll tell you, there were some good nurses. There 
were some people there that were doing their job from the 
heart, but all's you need is a couple that don't want to do 
their job and take their time doing their job, and then you 
have problems like we had. So we got him into Helen Hayes 
Hospital.
    And our--our struggles continue with the VA. We're--our VA 
now is in Albany, New York, the Stratton VA. We have a problem 
getting home--enough home healthcare aides. We've asked for 
therapies. For more therapies. We've asked the VA for more 
therapies, because this Marine remembers how it was to train 
hard. To be a Marine sniper, everybody knows how tough it is. 
There's less than 900 of these kids in the Marine Corps. And 
there's 200,000 Marines. This is an elite force. And this kid 
would train hard every day. And he's ready to train hard now. 
And we asked for more therapies. And this summer he was 
stripped of his therapies. There's a doctor up in the VA, in 
Albany, that took his therapies away. And this doctor never--
never examined Eddie, never evaluated Eddie, and never even 
visited Eddie, and took his therapies away from 5 days a week, 
down to 2 days a week.
    And we had Congressman Hinchey's office, Senator Hillary 
Clinton's office fight for 7 weeks. And, finally, after 7 
weeks, we were reinstated. And we've seen a regression there.
    Whenever we talk to the VA about healthcare issues and 
therapies for our son, because we're his parents, we love 
Eddie, we want the best and the most out of Eddie, just like he 
does, we always are on opposite sides of the fence with the VA. 
And our question is: Why?
    These young warriors stand between us and our Nation's 
enemies. When they come back wounded, they deserve the best 
care. The absolute best.
    We have--we have a letter right here that our President, 
Eddie's Commander in Chief, President George Bush, sent a 
letter to Mary Ellen Pishay, the Director of the Albany VA, 
asking them to expedite their processing and help the Ryan 
family out with Sergeant Eddie Ryan. The President. Lot of good 
that did.
    Ms. Angela Ryan. I just want to say, you know, my son is an 
amazing young man, young Marine.
    Voice. Can't hear you.
    Ms. Angela Ryan. Yes.
    My son is an amazing young Marine, 23 years old, sacrificed 
quite a bit.
    And I just want to say, real quick, simple, to the point, 
my son did his part as a United States Marine; fought for the 
freedom of this country. My husband and I will do our part as 
parents, to make sure that he gets what he needs. We expect 
that the VA will do the absolute to take care of this young 
man.
    [The prepared statement of Mr. and Mrs. Ryan appears on p. 
61.]
    Mr. Hall. Thank you very much. Thank you, Mrs. Ryan.
    I just have a couple questions.
    Eddie, what do you need from the VA? What would you like us 
to be able to do for you?
    Mr. Eddie Ryan. I need therapies.
    Mr. Hall. More therapies?
    Mr. Eddie Ryan. More.
    Mr. Hall. More, longer?
    Mr. Eddie Ryan. Longer.
    Mr. Hall. Okay. We'll work on it.
    Mr. and Mrs. Ryan, I wanted to ask you if you could 
summarize your experience with the VA, in terms of receiving a 
disability rating and benefits.
    Mr. Christopher Ryan. Yes. Yes. We received Eddie's service 
group life insurance, and we receive his monthly check. They 
cover his medicines, which are prompt getting there. Right? His 
medicines.
    Ms. Angela Ryan. Yes.
    Mr. Christopher Ryan. And certain supplies, which have been 
good.
    Mr. Hall. So, in your case, the problem is getting therapy 
that he needs, in the quantity, the number of days a week.
    Mr. Christopher Ryan. Yes.
    Mr. Hall. And the duration?
    Mr. Christopher Ryan. Yes, because, sir, if--if you only 
give--I've trained most of my life. And if I leave my door and 
run a half a mile a day, I'm going to plateau. That's as far as 
I'm going to go. I have to increase, I have to increase, my 
training to get to the next level.
    I don't have to talk to Eddie about training. He's far 
exceeded whatever I have done. And 45 minutes a day physical 
therapy is not enough. We even talked to neurologists and 
neurosurgeons that said that Eddie has to work hard every hour 
of every day. And the first 5 years are the most crucial with 
the TBI. And he needs--right now he needs blocks of therapies. 
You just can't give everybody 45 minutes. Every--every patient 
is different. He--he can withstand 2\1/2\- to 3-hour blocks of 
therapies. We pay--we pay for therapies, besides what the VA 
pays for, they provide 45 minutes of physical therapy, 5 times 
a week. Forty-five minutes of occupational therapy, which is 
very important, only 2 times a week. And that's only been 
recently. It's been one time a week for many months. And then 
we have our speech therapist that comes 5 days a week, for--for 
an hour.
    Now, what we would--what we know Eddie is ready for is more 
physical therapy, even more speech therapy, to help--to help 
the brain injury. And 45 minutes, yeah, the VA says, he's 
plateauing. Well, no kidding. He's going to plateau. You have 
to increase the training to get him to the next level.
    Mr. Hall. Okay. Thank you very much.
    I'm going to turn the questioning over to Congressman 
Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. Not really a 
question, but just a statement.
    Eddie, you are fortunate to have 2 such dedicated parents, 
but----
    Mr. Eddie Ryan. Yes.
    Mr. Lamborn [continuing]. Our country is fortunate to have 
you and the service you provide, and I hope you can give many 
more years of service in the future.
    Mr. Eddie Ryan. Hopefully.
    Mr. Lamborn. Thank you.
    Mr. Hall. Congressman Walz.
    Mr. Walz. Well, thank you. Thank you, Sergeant Ryan. And 
Mr. and Mrs. Ryan, I do echo that. We truly appreciate that.
    As I said to our last panel that was here, as a retired 
Command Sergeant Major, this indignity is absolutely 
unacceptable. This burns to the core of what we think and how 
we treat our warriors.
    And as I've said, time and time again, we have a moral 
responsibility to take care of Sergeant Ryan, but we also have 
a national security interest in making sure others of our best 
and brightest, who are willing to follow in his footsteps, 
understand that this Nation will be there to care for them. 
This is critically important.
    And this issue of the things you're saying, first and 
foremost, this idea of receiving substandard care, that people 
are protected, and that cannot stand. And they will not be 
protected.
    One of the problems we're facing within these panels is of 
all the federal agencies, and the VA is a large one, the IG's 
budget and the IGs, the Inspector Generals, inside the VA is 
the lowest of all the agencies. And what we need to do is we 
need to get another pair of eyes on that. The IG is not there 
to be the person slapping people down. They're down there to 
find what the weaknesses are, and correct them and bring them 
to attention, to make sure that we in Congress cannot allow 
this to stand.
    We are the ones--there has to be a face on this. We are the 
ones, and our colleagues, that are making these decisions. We 
are responsible for making sure the VA does not put you through 
that indignity, does not ask you to make those choices that 
you've had to make. And for that I deeply apologize.
    But I can tell you that we've been asking this, and I guess 
I'll ask you again, I know it is very subjective, but we're 
trying to get to the heart of this, we're trying to figure out 
the budgeting that's involved with this, we're trying to figure 
out the delivery systems.
    What is your take on this? Why do you think Eddie hasn't 
received the care that he so richly earned and deserves? What 
is your gut feeling on that?
    Mr. Christopher Ryan. My gut feeling is this country hasn't 
seen this kind of combat in about 35, maybe even 40 years. And 
I think the VA might be a little overwhelmed with the cases, 
with several severally wounded Marines coming back, almost 
30,000, and a third of them might be severally injured, like 
Eddie, and they might be overwhelmed.
    Mr. Walz. How would you respond, when I asked them that 
question and they sit in front of me, the administrators and 
the people who are running the VA, and they sat in front of me 
and I asked them this question: Do you need anything else? They 
said, no, we have what's necessary. That's what they tell me.
    Mr. Christopher Ryan. Well, then my question is: What is 
the problem? We saw--we saw laziness there in the McGuire 
Hunter VA. And, you know, when my wife started taking care of 
my son, we--she--they called security on her. Security. I--I 
told them, I said, listen, I'm the father. This is a young 
Marine. Okay. But he's our child. And I'm going to stand at the 
front door. I don't care what security comes. And they said, 
well, Mr. Ryan, we just want to let you know that the security 
in this hospital happens to be the Richmond Police Department. 
And if there's anything physical, you will be taken away in 
handcuffs. And that's how they used intimidation for us. And we 
were only able to visit our son, severally wounded as he is, 
from 9:00 in the morning until--no, 11:00 in the morning until 
8:00 in the morning.
    Ms. Angela Ryan. At night.
    Mr. Christopher Ryan. And we knew for sure that he wasn't 
getting the proper care. And we just wanted to help them. We 
wanted to help them. We wanted to assist the nursing. And we 
were not allowed to.
    Ms. Angela Ryan. Unfortunately, while we were there, there 
was 21 other wounded warriors, Marines, and they didn't have 
that, the parents standing by, you know, like, we were able to 
be there for Eddie. A lot of the parents weren't able to be 
there because they had to work, had little children at home.
    Mr. Christopher Ryan. Some of them were single-parent moms.
    Ms. Angela Ryan. Yeah. And I would take--I would take them 
under my wing and watch the kids on that floor. It was very 
upsetting to see that. And these kids were just drooling all 
over themselves. Unacceptable to me. And they wanted to call 
security because I would go into a room to take care of a young 
girl.
    Mr. Christopher Ryan. And these are the same kids that are 
knocking doors down and facing--facing insurgencies and facing 
dangerous times wherever the Nation calls them to be. They're 
ready to serve. And then they come back wounded.
    Here's a kid that was six foot one, 200 pounds of solid 
muscle. And he went down in the McGuire VA, he was missing 
meals, went down to 166 pounds. This is all on record; 166 
pounds. I lifted my son up one day, and I said, oh, my God. He 
was like--he lost all of his muscle. He was like this thin. I 
said, oh, my God. He looked like a prisoner of war. You ever 
seen movies like that? It was terrible. But thank God we got 
him out of there. And look at him now. He's just truck--he just 
keeps coming back. And people--and people always come up to him 
and they thank him for his service. And let him tell you what 
he says to the people.
    Mr. Eddie Ryan. I'd do it again.
    Mr. Christopher Ryan. He says, he'd do it again if he had 
to.
    Mr. Walz. Well, we thank you for being here, to make sure--
make sure no one else goes through this.
    Mr. Walz. You tell them you love them every day. You've got 
good ones.
    Mr. Hall. Thank you very much, Sergeant Ryan, and Angela 
and Chris.
    I can testify as to the fact that you are not only coming 
back physically and mentally and conversationally, but you have 
a very strong left hand grip. And I'm looking forward to that 
getting stronger and your right hand and your right shoulder 
coming back, and your incremental progress continuing.
    So we will do everything we can to try to help.
    Mr. Eddie Ryan. Thank you.
    Mr. Hall. And is there anything else you'd like to say to 
the Committee, or dismissed?
    Mr. Eddie Ryan. Thank you for your help. I enjoy it. 
Appreciate it.
    Mr. Hall. Thank you, Eddie, and thank you for your service 
to our country.
    Mr. Hall. Now we'll ask our fourth panel to join us at the 
witness table.
    Our next witness is Michael Walcoff, Associate Deputy Under 
Secretary for Field Operations for the United States Department 
of Veterans Affairs.
    As usual, Mr. Walcoff, the written testimony is in the 
record, so you don't have to adhere to it exactly, and feel 
free to add to or summarize it.
    I'd ask you to keep the conversations down in the room, if 
you're in the process of leaving.
    Mr. Walcoff, your 5 minutes.

STATEMENT OF MICHAEL WALCOFF, ASSOCIATE DEPUTY UNDER SECRETARY 
 FOR FIELD OPERATIONS, VETERANS BENEFITS ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. Walcoff. Mr. Chairman, Members of the Subcommittee, 
thank you for providing me the opportunity to appear before you 
today to discuss the Veterans Benefits Administration's pending 
claims inventory and claims backlog.
    Today I will discuss the challenges we face in providing 
timely decisions on veterans' claims for disability 
compensation.
    Voice. Can't hear.
    Mr. Hall. Get as close as you can to that microphone.
    Mr. Walcoff. These challenges include the growth of the 
disability claims workload and the increasingly complex nature 
of that workload. I will also discuss some of the actions we 
are taking to improve the claims processing and reduce the time 
veterans must wait for decisions, to include our efforts to 
expedite the processing of claims from Operations Iraqi Freedom 
and Enduring Freedom veterans. We view these efforts as 
opportunities to achieve greater processing efficiencies and 
enhance our service to veterans.
    The number of veterans filing initial compensation claims 
and claims for increased benefits has increased every year 
since fiscal year 2000. Disability claims received increased 
nearly 38 percent from fiscal year 2000 to 2006. For 2007, 
receipts were up another 4 percent. Additionally, VBA received 
a record high of 80,383 claims for a single month in August 
2007. This high level of claims activity is expected to 
continue over the next few years.
    Increase in claims receipts is not the only factor changing 
VA's claims environment. The greater number of disabilities 
veterans now claim, the increasing complexity of the 
disabilities being claimed, changes in law, and Court decisions 
affecting VA's decisionmaking process pose additional 
challenges to timely processing of our claims. The trend toward 
increasingly complex and difficult-to-rate claims is expected 
to continue.
    A claim becomes more complex as the number of directly 
claimed conditions or issues increases because of the larger 
number of variables that must be considered and addressed by VA 
decisionmakers. Multiple regulations, multiple sources of 
evidence, and multiple potential effective dates and 
presumptive periods must be considered. The effect of these 
factors increases proportionately and sometimes exponentially 
as the number of claimed conditions increases. VA's experience 
since 2000 demonstrates that the trend of increasing numbers of 
conditions claimed is systemwide, rather than just at special 
intake locations, such as our Benefits Delivery at Discharge 
(BDD) sites. The number of cases with 8 or more claims 
disabilities increased 135 percent from FY 2000 to 2006.
    At the end of fiscal year 2007 our pending inventory of 
rating related claims was 391,593, and our average processing 
time was 182.6 days. However, not all of these claims in our 
inventory should be defined as backlog. The number includes all 
claims, whether pending only a few days or a number of months. 
Under the very best of circumstances, it takes about 4 months 
to fully develop and decide a claim. This includes the time to 
notify and assist veterans in obtaining military and private 
medical records, scheduling necessary medical exams and 
receiving results, and ultimately evaluating evidence and 
making a decision. Based on our current receipts of 
approximately 70,000 claims each month and our timeliness 
performance target of 145 days, our level of pending inventory 
with no backlog would be approximately 280,000 claims.
    The VBA provided veterans with decisions on more than 
774,000 disability claims in fiscal year 2006. During 2007, we 
completed over 824,000 decisions, which represents an increase 
in productivity of 6\1/2\ percent in 1 year. Between April and 
August 2007, VBA processed more claims than in any 5-month 
period on record. Despite the increase in claims processed, 
VBA's pending claims inventory has remained relatively stable 
for the past 6 months, which is a result of the increased level 
of claims received.
    Facing the challenges I've discussed, VBA is aggressively 
pursuing measures to decrease the pending inventory and shorten 
the time veterans must wait.
    Since the onset of combat operations in Iraq and 
Afghanistan, VA has provided expedited and case-managed service 
for all seriously injured Operation Iraqi Freedom/Operation 
Enduring Freedom (OIF/OEF) veterans and their families. This 
individualized service begins at the military treatment 
facilities and continues as these servicemembers are medically 
separated and enter the VA medical care and benefits system. We 
assign special benefits counselors and case managers to work 
with these servicemembers and their families throughout the 
transition to VA to ensure expedited delivery of all benefits.
    In February, the Secretary of Veterans Affairs announced a 
new initiative to provide priority processing of all OIF/OEF 
veterans to include all active duty, National Guard, and 
Reserve veterans who were deployed in the OIF/OEF theatres or 
in support of these combat operations.
    This allows all OIF/OEF veterans who were not seriously 
injured in combat, but who nevertheless incurred a disability 
or had it aggravated during their military service, to enter 
the VA system and begin receiving disability benefits as soon 
as possible.
    We are addressing the increasing workload by adding large 
numbers of new claims processors. We have added more than 1,100 
new employees since January 2007 and will add a total of 3,100 
by the end of fiscal year 2008. These employees will be placed 
in critically needed positions in regional offices throughout 
the Nation.
    Along with the multitude of activities involved in a 
recruitment program of this magnitude, we have begun the 
critical tasks of training, equipping, and acquiring space to 
house our new employees. We have modified our new employee 
training program to focus initial training on specific claims 
processing functions. This will allow new employees to become 
more productive earlier in their training program, and at the 
same time allow our more experienced employees to focus on the 
more complex and time consuming claims.
    Recently retired rating specialists and claims processors 
have been recruited to return to work as rehired annuitants, 
enabling us to increase the FY 2007 decision output by nearly 
19,000 claims. The efforts of our rehired annuitants are 
focused on processing claims pending more than 1 year and for 
veterans over the age of 70. We expect to double the 
utilization of rehired annuitants during fiscal year 2008. In 
doing so, we expect to complete approximately 4,000 additional 
claims per month in FY 2008. We've also significantly increased 
overtime funding to maximize the contribution of our 
experienced staff.
    In the coming year, we will complete the centralization of 
original pension processing to our 3 pension maintenance 
centers, which will allow regional offices to dedicate more 
resources to compensation claims processing.
    We also gain processing efficiencies by centralizing all 
compensation and general assistance telephone calls to 9 
Virtual Information Call Centers. Limiting telephone customer 
service to dedicated call centers will free up employees to 
focus on claims processing. In the past year, we've assembled 
workgroups to evaluate efficiencies that may be gained by 
further consolidation of appellate work and fiduciary 
activities. Though we continue to face challenges, VBA has 
actions in place to improve claims processing and reduce the 
time veterans must wait for decisions as we strive to provide 
benefits in a responsive, timely, and compassionate manner.
    Mr. Chairman, this concludes my testimony. I'll be happy to 
respond to any questions that you or other Members of the 
Subcommittee may have.
    [The prepared statement of Mr. Walcoff appears on p. 62.]
    Mr. Hall. Thank you very much, Mr. Walcoff. And thank you 
for making the trip here to join us for the hearing.
    Congratulations, by the way, on the record of 749,000 and 
change in claims processed from April to August.
    I have a couple of questions related to your written 
testimony.
    One is, you stated that certain mental health conditions, 
including PTSD, present unique processing requirements.
    Can you explain what is unique about the processing of 
these types of claims, and how these characteristics affect the 
timeliness of the processing system?
    Mr. Walcoff. On a PTSD claim, we are required not only to 
have a diagnosis of PTSD, but we're also required to identify 
what's called a stressor, an event that occurred, a specific 
event, that occurred within the military service that is 
related to that diagnosis of PTSD. The veteran filing that 
claim will often provide that information. Those claims are 
relatively simple. But in many cases he is unable to provide 
the specific information we need to verify the stressor. In 
those cases, there's certain research that we can do, with 
various Web sites that are available, to try to research and 
find the specific information to validate the stressor, but 
there are situations where we are unable to do that. In that 
situation, we send the claim out to another organization at 
Fort Belvoir, and they have access to other records that can be 
used to verify the stressor. Unfortunately, that process takes 
approximately 9 months to a year to get that information back 
from Fort Belvoir.
    Now, what we've been trying to do is--recently we had 6,000 
claims pending at what's called Joint Services Records Research 
Center (JSRRC), is the name of the agency. We pulled those 
claims back recently and assigned 6 of our people specifically 
to do the research, the advanced research, using some special 
tools that they had been trained to use to try to see if they 
could do it and save the 9 months to 12 months that it was 
going to take. We were able to clear about a third of those 
claims, but the other two-thirds had to go back to JSRRC, and 
we're waiting for answers from them. So that's the additional 
complication on PTSD claims.
    Mr. Hall. Thank you.
    It's also clear that claims are becoming more complex; you 
testified to that, as have others, containing multiple 
conditions and addressing large numbers of variables.
    Does the VA have any initiatives underway to address the 
increasing complexity of the claims that it's seeing?
    Mr. Walcoff. Well, in terms of the number--of additional 
number of issues, just to give you an example, years ago, when 
I was a claims examiner, it goes back a long time, the average 
new claim would have usually 2, 2\1/2\ issues. Where we get our 
new claims in to our BDD sites, in Salt Lake and Winston-Salem, 
they're averaging about 11 issues per claim. That's a 
significant increase, and it makes the claim that much more 
complex because, not only do you have to send out the new 
process notices, the Veterans Claims Assistance Act notices on 
each condition, but you also have to set up multiple exams 
because, if you're claiming more issues, you have more body 
systems involved and you'll have more specialty exams that have 
to be set up and that takes more time. So that's the reason 
why, when we talk about the increased complexity, that's the 
primary thing that makes multiple issues claims complex.
    Mr. Hall. Thank you.
    According to your testimony, 4 months is the absolute 
minimum amount of time necessary to fully develop and decide a 
claim.
    Can you tell us how this number was derived, and what it 
would take to cut the processing time, if you think it's 
possible to do that, to 30 to 60 days?
    Mr. Walcoff. There are several issues involved in arriving 
at 120 days. You know, we've had a lot of discussion in the 
past at your previous hearings about the VCAA legislation.
    And first let me say that I don't think VCAA is a bad 
thing. I think it is important in terms of the fact that it 
provides certain due process protections for veterans, which I 
believe are extremely important.
    The issue with VCAA, and in providing those protections, it 
provides certain timeframes that we have to wait before we can 
move further with the claim. And that's part of what is built 
into this 120-day scenario.
    In addition to that, there are medical exams that have to 
be set up. In the multi-issue cases sometimes it's many exams. 
When we deal with the Veterans Health Administration (VHA) or 
with the private contractor we use, it takes about 35 days to 
get an exam done. There are some cases you can do while you're 
waiting for the VCAA stuff to come back. In other cases, based 
on what is submitted by the veteran, after getting his VCAA 
notice, that's when we can start setting the exams up. So if we 
have to wait 60 or 80 days to get that information back, then 
you set an exam up, that's another 35 days, you wind up coming 
up pretty quickly to the 120 days.
    Mr. Hall. Just quickly, you mentioned in your written 
testimony 145 days as a performance target. But in your oral 
testimony you said 125 days.
    Mr. Walcoff. I would like to see us get to 125 days, sir. 
One-hundred forty-five days is a number that has been used 
lately by us in discussions. It is still my belief that we 
should strive to achieve 125 days. And that's the number that 
I've been using, because it's my desire.
    And when I supervise the regional offices and when I talk 
to the employees in the regional offices, we talk about what 
does a veteran expect? How long does a veteran expect to wait? 
And generally what we find, and it's very informal, but the 
veteran's expectations are closer to 125 days, than 145 days. 
So I believe that if we could find some way legally to come up 
with a waiver that we could work with the service organizations 
to try to get veterans to sign when they don't have any more 
information to submit to us, using that, maybe trying to 
improve the timeliness on exams by working with VHA and working 
with QTC Management. These are the kinds of things that I'm 
hoping we could squeeze a few extra days out here and there to 
get us down to 125 days.
    Mr. Hall. Just for the record, I think the 125 days would 
certainly be an improvement, but I don't think it should be our 
goal. I think a 4- to 5-month wait to have a claim processed is 
not what our veterans deserve. If we have to make systemic 
changes, in addition to just hiring more people, and, you know, 
look at payment of a median for a claim that's a level 
disability that's being applied for while the claim goes 
forward and is adjudicated, and then have that adjusted after 
the fact. There are a number of ideas that you've heard tossed 
around in Congress, but many of us, I think, feel that 125 days 
is still too long.
    But my time is up, so I hand the microphone to Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And I've gone on record in this Committee saying I want to 
make that 120 day process go faster. Not sacrificing any of the 
safeguards that veterans deserve, but where they're willing to 
waive certain things, you know, to speed things along, and I've 
asked Mr. Aument, and I've asked the VA to help me come up with 
suggestions on how to do that. And I still haven't heard back 
yet. So I would like to get some dialogue going on how we can 
legislatively make that better.
    Mr. Walcoff. There's been a lot of discussion, I know, with 
your staff and in VA we talk about it all the time, working 
with our General Counsel, to try to figure out how can we take 
VCAA, protect the important provisions of it that are so pro-
veteran, but at the same time develop something like a waiver 
that would keep those protections but allow us to move forward 
more quickly. And trying to find that exact line is what we've 
been trying to do. It's very difficult. We continue to work on 
it, working with our General Counsel. We don't want to do 
anything that's going to cut back on those veteran protections 
that are VCAA.
    Mr. Lamborn. Okay. Thank you. And we'll keep working with 
you on that, and hopefully we can make some progress.
    Changing topics here, the Virtual VA Program, how is that 
coming along? And how does that relate to what I've proposed in 
H.R. 3047?
    Mr. Walcoff. I heard the previous panel talk a lot about 
some of the electronic potential solutions and Virtual VA 
itself.
    There has been some movement forward. Our BDD processing 
centers in Winston-Salem and in Salt Lake are using Virtual VA. 
We are scanning in the service medical records that we are 
getting from our intake sites at 4 places around the country. I 
believe it's Fort Lewis, Fort Carson. I believe Fort Carson's 
one of them.
    Mr. Clark. It is.
    Mr. Walcoff. And then Camp Lejeune and Fort Bragg, in North 
Carolina. And what we were finding was that, even for returning 
soldiers to BDD, the service medical records are pretty thick. 
So recently, we just signed a contract with a scanning company 
that is going to allow us to do that much, much quicker than we 
were able to do before. That's going to really enable us, I 
think, to move forward much faster on the Virtual VA pilot.
    The rating specialists who use Virtual VA really like it. I 
was out in Salt Lake not that long ago, and it was interesting 
watching rating specialists with the 2 screens, 2 monitors, 
working off the 2 of them. And I said, do you find this 
cumbersome? Does it slow you down? And they said, if anything, 
it makes it easier. And they were very, very positive about it.
    We're very interested in using technology. I know you've 
been very interested in trying to help us with that.
    In our supplemental appropriation this past summer there 
was $20 million for us to look at information technology (IT) 
solutions. We're working with the Chief Information Officer's 
office in trying to do that. Right now we are listening to 
proposals from a bunch of companies that are looking at 
proposals for IT tools that could possibly help us come up with 
some good solutions for this.
    We also have a contract with IBM, looking at our claims 
processing system as a whole, and looking for them to give us 
suggestions on how we can improve it.
    We are very interested in getting help. And, it's not that 
we're resistant. It's not that we think, well, we know it all, 
and, this system's the best. You're not going to improve it. We 
are interested in trying to improve it and we're interested in 
any kind of expert advice we can get.
    Mr. Lamborn. Okay. Thank you.
    My last question is: Something in H.R. 3047, should it 
pass, that you are probably less comfortable with is the shift 
from the internal assessment to an external, outside 
independent agency doing the assessments of your claims 
adjusters and claims specialists. Can you comment on that?
    Mr. Walcoff. We have just recently been asked for an 
official agency opinion on H.R. 3047. It's not done yet.
    In my own reading of it, I thought there were several 
interesting provisions in there. And the idea of an independent 
reviewer, other than the STAR Review that we do out of 
Compensation and Pension Service, has been proposed before. The 
first time it was proposed there was not even any review by 
anybody outside of the actual regional office. I personally 
believe that the STAR System can achieve the independent review 
by having people not involved in the actual processing of those 
claims reviewing it.
    I think that part of the problem with STAR was that we 
hadn't staffed them up as high as they need to be. We have 
recently given them a lot more recourses to try to expend their 
reviews, to look at things like consistency, as well as just 
whether there's an error or not, some of the consistency issues 
that were referred to in a previous panel.
    My own personal opinion, is that the STAR Organization is 
capable of providing the type of review that you would want. 
But that's not the official position at this point of VA. We 
haven't provided that official position yet.
    I was also interested, frankly, in the first provision of 
your bill, involving the delay in taking credit for claims 
processed. And, again, the agency does not officially have a 
position on that.
    My own experience, from years not only doing the work and 
managing regional offices, but also from having spent 13 years 
in the human resources field, is that we would really have to 
look closely at how something like that would be implemented. 
Because, as you know, at minimum a veteran has a year to file 
an appeal. And then if he files an appeal, the VBA process can 
take 3 to 4 years. And if you're talking about taking credit 
from an individual employee's standpoint, my concern is looking 
at an individual employee performance, both positive and 
negative, and basing it on actions that they did 3 or 4 years 
ago, I think that that's not an effective way of managing 
employee performance. I think that the more recency involved in 
your review of an employee's work and that feedback, the better 
in terms of getting performance. And that's why I would have 
some concerns with that first part of your proposal.
    Mr. Lamborn. Thank you for your comments.
    Mr. Walcoff. Okay.
    Mr. Hall. Congressman Walz.
    Mr. Walz. Thank you, Mr. Walcoff.
    Thank you so much for your service.
    Mr. Walcoff. Thank you.
    Mr. Walz. Thank you for choosing to go into public service 
and working with our veterans. And I hope you understand, that 
you should see us as partners in this. And I very much 
understand the good things that you do, and I think we have to 
highlight those.
    As a high-school teacher, I can find positives in any given 
situation if I look hard enough. But I also find a degree of 
frustration to it.
    So a couple things I'd like to ask is, the American people, 
through their elected representatives, this year provided the 
single largest increase in funding to the Veterans Affairs in a 
77-year history.
    Now, you told me you hired 3,100----
    Mr. Walcoff. We're in the process of hiring.
    Mr. Walz. You're in the process of doing that.
    You would not have done that if we had gone on your budget, 
that the VA submitted to us. This is above and beyond. There 
was nothing in there, if I'm not mistaken, that did that.
    My question to you is: Why didn't you ask us for it? Why 
didn't you ask for this increase, if it's needed?
    Now, you may be the wrong person to ask, so it may be 
somewhat rhetorical for me, but I get very, very frustrated by 
that.
    Mr. Walcoff. I will try to answer the question.
    Mr. Walz. I appreciate it.
    Mr. Walcoff. And I think that, obviously, in hindsight, the 
view is a little bit different when you're looking back. 
Remember that we do our budgets 2 years in advance, from when 
we actually get the budget. That's the way the system works, as 
you know. So when we prepared the 2007 budget, and some of the 
resources that we're hiring in the 3,100 were in 2007, that 
budget was done in 2005. A lot of things have happened in those 
2 years. So I guess what I'm saying is that I agree with you 
that a lot of those hires weren't in the budget. But I think 
that when the budget was prepared, I'm not sure we were facing 
exactly the same situation.
    Mr. Walz. Well, thank you for that segue. My question was 
going to ask you that very same thing.
    Many of us, and you heard these family members here, 
question if preparations were made--when we were fighting this 
war, if preparations were made to take care of the warrior.
    And my question to you is: Would mandatory funding for the 
VA fix this problem?
    Mr. Walcoff. That's one that I'm going to say that I'm 
probably not the right person to answer that question.
    Mr. Walz. Okay. But I ask you for this group that's out 
here that has strong feelings about it, too.
    Mr. Walcoff. And I do. And, obviously--Congressman, let me 
just say that, certainly, listening to the testimony that was 
provided in the panels before me, you really can't help but be 
touched by the stories that were told. Hearing the emotion 
that's involved with everybody that was up here, and I----
    Mr. Walz. And I know that you care as much as anybody in 
this room. So please don't think that. I know that, for a fact, 
that the VA does.
    Mr. Walcoff. I appreciate that.
    Mr. Walz. So I guess my question is, and one that we're 
struggling with, and we'll get to this, that there's still 
going to be the overriding question, we hear all these--we hear 
the backlog games. And every time I try and end with talking to 
the VA officials is, what would you have me tell Eddie Ryan and 
his parents? That's what I have to answer to. That's what Mr. 
Hall and Mr. Lamborn have to answer to. What do I tell them? 
Are we getting better? Is it not going to happen again? Are we 
going to make sure they don't go through that?
    Mr. Walcoff. In a general sense, I'm going to say, 
absolutely I believe we are getting better. I believe that the 
additional people that we're hiring are absolutely going to 
make a difference. I think the possible IT solutions are 
absolutely essential to the overall improvement.
    I wish I could say that we'll ever get to the point where 
there aren't any mistakes and that no individual case falls 
through the crack. That's something that I could wish for every 
night.
    Mr. Walz. Right.
    Mr. Walcoff. But I know I can't say that. You know, that as 
long as we have, in VBA right now 14,000 human beings doing our 
work, that there are going to be mistakes.
    What I care about is, do people care when they make a 
mistake. Does it mean something to them that they let a veteran 
down. And what I'm really looking at. If I find anybody who 
doesn't care, that's the person I'm going to be reacting to 
immediately. And I think that's important.
    Mr. Walz. Well, I appreciate it. We have 432 other 
colleagues that share that, and this group up here represents 
about 2 million people, and you can be sure that our 
constituents want that. We want what's best, so ask us. We're 
partners in this with you. The American people want to deliver 
on this. Together we can do it, I am absolutely confident of 
that.
    So, thank you.
    Mr. Hall. Thank you, Congressman Walz.
    I just wanted to ask, before we excuse you, Mr. Walcoff, if 
you would comment, since not only have you run regional 
offices, but, if I'm not mistaken, you're in charge of all the 
regional offices now.
    Mr. Walcoff. I am right now, yes.
    Mr. Hall. If you're familiar with the New York Regional 
Office's average of 255 days figures that our office had seen, 
and a backlog of 9,638 claims, a rating of 83 percent, accuracy 
rating of 83 percent.
    From what I hear, you know, from other people who have been 
in the office, is that there's a lot of attrition retirements--
those spaces are not being filled, and that there are a lot of 
empty desks and empty chairs.
    What do you think the plans are for New York, and how we 
can bring it up to snuff?
    Mr. Walcoff. I am familiar with New York's performance. I 
think everybody in VBA would say that it's certainly not to the 
level that we would like it to be.
    New York suffered more than most other offices back in the 
2004-2005 time frame, when we had a hiring freeze as an 
organization. Every office was affected by the freeze. New York 
was affected more than many because of the fact that they lost 
so many employees during that period of time and weren't able 
to replace them. They had a workforce that was a little bit 
older than many of our other offices, that was more effected by 
the retirements that were taking place, and they were unable to 
fill those jobs for a long period of time.
    They are in a position where they're hiring now. I believe 
that 60 percent of their veterans service representatives have 
less than 18 months' experience, so that presents some other 
problems, in terms of getting them trained to the point where 
they're fully productive. But we are allowing them to hire 
more. And I would think that they will get to the point where 
there will be improvement. In the meantime, we are brokering a 
lot of their work out, as was referred to on a prior panel. And 
we will continue to do that, so that the veterans who live in 
that jurisdiction don't have to suffer any more than necessary 
by being in a situation where there are so many new employees. 
We want to get to the point where we don't have to broker out 
anymore; that New York has the right number of employees and 
they have the proper amount of experience, so they can handle 
their own work. That's what we're striving for.
    Mr. Hall. Thank you very much, Mr. Walcoff. And thank you 
for being here.
    Thank you to everyone who testified today.
    There are compelling reasons why the VA must fix the claims 
process and reduce the backlog. I, for one, believe that the 
backlog should be reduced to something that resembles the 
length of time that it takes an ordinary citizen, who has a 
health insurance policy, to find out whether or not they're 
covered for a particular knee or shoulder or the flu or a tick 
bite or for whatever it is they might go into the emergency 
room or doctor's office to check. They hand over their card and 
make a copy and somebody goes in a back room and calls an 800 
number and comes back in 5 minutes and they're told yes or no. 
Our ordinary citizens, American citizens, are able to achieve 
that kind of quick answer, even if sometimes we don't like the 
answer. We get a quick resolution. I'd like to see something, 
see us get down to 2 months, and then eventually to 1 month and 
get it to be a short enough time, so that the veteran is not 
suffering from an injury or a disease for which, timely 
treatment is essential, that they're not waiting.
    Also, if they're in financial circumstances that are 
untenable, that they're not waiting for a decision on those 
parts. It's a shame in this country, now I know you would agree 
with this, as we all do up here, that we have a record amount 
of divorces among military families, a record number of 
suicides among our returning veterans, and a record number of 
bankruptcies. Anything that we can do to help that transition 
to shorten the time that it takes for cases to be heard and 
decided, is what we want to do. They stood up for us, and now 
it's our turn to stand up for them. That's what I, as Chairman 
of this Committee, and my fellow Members hope to do.
    I thank you for working with us. Thanks, again, to 
everybody who contributed, including Mike Tokarz, who submitted 
a statement for the record, Legislative Counsel for the 
American Legion, and Gerry Donnellan, the Director of Rockland 
County Veterans Agency, who also submitted a statement for the 
record.
    [The prepared statements of Mike Tokarz and Gerry Donnellan 
appear on pages 65 and 66.]
    We will keep this record open for 5 business days, and any 
veteran who would like to submit written comments can do so to 
my office or to the office of the Veterans' Affairs Committee. 
We can give you that address afterward.
    Thanks again. This meeting stands adjourned.
    [Whereupon, the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

                Prepared Statement of Hon. John J. Hall,
  Chairman, Subcommittee on Disability Assistance and Memorial Affairs

    Good Morning,
    I would ask everyone to rise for the Pledge of Allegiance--flags 
are located in the front of the room.
    A few preliminaries. In accordance with Committee Rules, I ask that 
all cell phones and pagers be turned off, and as we have a lot of 
business to conduct in a short period of time I would like to conduct 
this hearing with as much decorum as possible. Out of respect for our 
witnesses, please try to refrain from speaking out of order.
    I would first like to thank the witnesses for coming today to 
appear before the Subcommittee. I know the issues pertinent to the 
claims backlog at the Department of Veterans Affairs, or ``the VA'', 
are of utmost importance to you.
    On a personal note, as Chairman of the Veterans' Affairs 
Subcommittee on Disability Assistance and Memorial Affairs, it is a 
special privilege for me to conduct this hearing in my district, and an 
honor for me to be able to address the issues facing local veterans in 
or nearby their hometowns.
    For our veterans who are testifying today, I know that you have 
endured a great deal in seeking disability benefits from the VA and I 
thank you for sharing your experiences so that other veterans might not 
have to suffer the same result.
    Everyone is familiar with the claims backlog problems at the VA and 
I will not belabor the issue. The claims backlog of over 600,000 cases 
is very troubling. The current waiting periods at all levels in the VA 
disability benefits system, from 177 days at the Regional Office to 751 
days at the VBA or 240 days at the CAVC, are all unacceptable. The 
backlog and waiting times became exacerbated to the point of 
unmanageability due to the funding shortfalls over the past 5 years.
    Yet, despite the backlog, I firmly believe that this system is 
girded by a cadre of dedicated and professional employees who are 
committed to our veterans. I know that my office has a wonderful 
working relationship with the VA's New York City Regional Office that 
serves our district and I commend the employees for the fine work they 
do on behalf of our veterans.
    These facts notwithstanding, the New York City VA Regional Office's 
performance on processing claims has fallen far behind the national 
average. Currently, it averages 255 days to complete a claim and has a 
pending backlog of 9,638 claims (20 percent higher than its goal of 
7,952).
    But, I know that it is working with one arm tied behind its back, 
because as pointed out by the American Legion in its testimony, due to 
a hiring freeze that began in 2001 through January 2006 to comply with 
federal cuts to VA funding, the NY City RO needs at least a third more 
employees (40-50) to deal with the number of claims it currently has 
and the number of claims anticipated.
    I am heartened by the fact that the FY08 Budget Resolution allowed 
and the FY08 MilCon-VA Appropriations bill will provide funding for 
over 1,000 full-time employees throughout the VBA to help with the 
overwhelming backlog. I look forward to sending this bill to the 
President before 110th Congress adjourns its first session. However, I 
firmly believe that the only way to maximize the VBA's employees' 
effectiveness in lessening the backlog is to give them the necessary 
tools and training to provide accurate ratings. As such, I look forward 
to receiving information on the VA's STAR training program updates as 
recommended by the IDA.
    As the home of the United States Military Academy at West Point, 
the 105th Airlift wing of the Air National Guard at Stuart Airport, as 
well as Camp Smith, an Army National Guard facility, issues pertaining 
to the backlog hit especially close to home. The veterans' population 
in our district is 11.8 percent (roughly 70,000). Moreover, the Iraq 
War has had a significant impact on the district, particularly the West 
Point community. Sadly, West Point has had 55 graduates die in combat 
since September 11, 2001. With the number of these graduates heading to 
a combat zone, the VA's ability to deal with future claims is 
especially important to our community as well as to the nation's 
ability to retain future officers of the United States Army.
    The first panel of witnesses today will present testimony regarding 
the impact the extended waiting periods at the VA has had on those 
their organizations represent. We will also hear the testimony of 4 
veterans from 3 different wars who will discuss the impact of long 
waiting times on their personal lives and financial well-being. I look 
forward to hearing their testimonies.
    I also want to note that Ted Wolf, a Vietnam veteran battling 
prostate cancer, was scheduled to testify here today. While we will 
hear his testimony, because of health problems he cannot be here today. 
Ted and I have met multiple times and he is a truly wonderful person. I 
want to send my prayers to him and his family at this difficult time.
    From the VA, I would like to hear what it is doing or intends to do 
to place appropriate resources in the NY Regional Office; what it is 
doing both to address its 600,000-plus claims backlog; and to reduce 
waiting times.
    I want us all to remain aware of the special privilege we possess 
in being able to devise the policies and administer the benefits for 
these brave men and women and their families.
    There is real sanctity in this privilege--we should always be 
mindful of whom we are serving.
    Last, I would like to recognize several members of our audience. 
Michael Tokarz, a member of the American Legion Legislative Council, 
and Jerry Donnellan, the Veterans Service Agency Director for Rockland 
County, have provided written testimony for the record. Nelson Rivera 
and Tom Meier, the Veterans Service Agency Directors for Dutchess and 
Westchester County, respectively, are here as well. I want to thank 
them for attending and thank all our County Directors for their work in 
helping New York veterans. We are lucky enough to have 2 directors of 
National Veterans Service Organizations here today.
    John Rowan, of the Vietnam Veterans of America, and Larry Schulman, 
the National Commander of the Jewish War Veterans of the USA, have both 
made the trip and I thank them for attending.
    I also want to thank George Basher, the Director of the New York 
State Division of Veterans' Affairs, for attending. In addition to his 
service to New York veterans, Mr. Basher also serves on the Advisory 
Panel on Homelessness of the Secretary of Veterans Affairs in 
Washington.
    Finally, Norm Bussel, a POW from World War II and an advocate for 
veterans, is here. Mr. Bussel, and his wife, Melanie, first helped Alex 
Lazos, who will testify shortly, file his claim with the VA. Mr. Bussel 
provided compelling testimony for this Committee in Washington and I'm 
pleased to see him again.
    Thank you all for attending.
    To take care of some official business, I request unanimous consent 
that the record remain open for 5 business days to revise, extend and 
receive additional statements and remarks.
    I now would like to formally welcome Ranking Member Lamborn to my 
district, who is joining us all the way from Colorado's 5th district--
home of the Air Force Academy, and recognize him for his opening 
statement. Thank you for being here, I know that you are just as 
committed to fixing the VA's claims backlog as I am.

                                 <F-dash>
                Prepared Statement of Hon. Doug Lamborn,
                       Ranking Republican Member

    Thank you, Mr. Chairman, and I thank you for inviting me here to 
New Windsor to hear from witnesses on the personal costs claims 
backlog. Before I begin I also want to recognize Larry Schulman, the 
National Commander of the Jewish War Veterans of the USA. Thank you for 
your attendance today, sir, and I look forward to working with you in 
coming year.
    As everyone is aware the VA's compensation and pension backlog has 
reached an epic and regrettable level.
    The over 400,000 disability compensation claims in the backlog are 
not just marks on an inventory sheet but represent a real veteran or 
their family who is waiting patiently for VBA to adjudicate their claim 
in an accurate and timely manner.
    In reading the testimony of the second and third panel it seems to 
be that there is much work to be done in reaching this ``human level''. 
I am also not convinced that if we had this same hearing in my home 
state of Colorado that we would not find other veterans with similar 
problems of those veterans with us today.
    VA has set a goal to decide a given claim in an average of 125 
days. While more than 4 months strains the meaning of the word 
``prompt,'' it is not unreasonable, given the complexity and demands of 
the Veterans Claims Assistance Act and other administrative 
requirements.
    Now we need VA to ``just do it.''
    I know that we in Congress bear some responsibility for all this 
complexity and I am always looking for ways to help improve the 
bureaucratic process, while safeguarding it for veterans.
    That is why my staff and I have consistently asked VA to help us 
help you. To the VA I say, send us legislative proposals and solutions 
for all of the challenges that are listed in Mr. Wolcoff's written 
testimony.
    While I acknowledge that there is no silver bullet that will 
eliminate the backlog, I believe that we can take immediate, vital 
action by passing my bill H.R. 3047, the Veterans Claims Processing 
Innovation Act of 2007. This would be an important first step to 
helping solve problems in the VA claims process.
    H.R. 3047 will bring VA's compensation and pension system into the 
21st century. By increasing accountability and leveraging technology at 
the Veterans Benefits Administration, this bill would improve the 
accuracy and speed of benefits claims.
    While I agree that VBA is making some improvements in terms of 
timeliness and needs to be adequately staffed, I am concerned that 
quality is being sacrificed in the name of speed.
    Mr. Chairman I know we can both agree that after our 2 hearings 
this session, on the Board of Veterans Appeals and the Court of Appeals 
for Veterans Claims, that accuracy is a problem systemwide.
    One way to improve this is by increased training and accountability 
at VBA, something that is included in H.R. 3047 by requiring an 
independent agency to review and certify VA's training programs.
    I would rather have a veteran wait just a little bit longer for an 
accurate and fair rating then have them receive their rating quickly 
and it be wrong. It is imperative that all claims are done right the 
first time and I know that improving training is the first step toward 
this.
    I thank you Mr. Chairman for promising to hold a legislative 
hearing on H.R. 3047 later this month.
    I want to thank the witnesses for their testimony and my good 
friend Chairman John Hall for inviting me here this morning, and I 
yield back.

                                 <F-dash>
             Prepared Statement of Anthony Zippo, Director,
           Orange County Veterans Service Agency, Goshen, NY

    Thank you Chairman Hall and other Members of the Subcommittee on 
Disability Assistance and Memorial Affairs for giving me the 
opportunity to speak for our veterans in Orange County. We have 
approximately 27,000 veterans in this county, including 1,300 Iraq 
veterans. Orange County veterans receive 27 million dollars from the 
Veterans Administration for disabilities and pensions.
    As a county veterans' service agency our staff has had firsthand 
experience with the issues facing veterans today. One of the most 
frustrating aspects of assisting veterans with disabilities or their 
survivors, is having to explain that the Veterans Administration 
processing time could take up to a year, or more. Sometimes it could 
take 3 months, 6 months, 9 months, a year or even longer. There is no 
explanation why it takes so long.
    We are taught by the VA and Veterans Organizations to submit 
completed claims.
    Often, even when all the evidence is submitted issues are not 
addressed and claims are delayed. Delaying the claim may also delay the 
veteran's medical care, education, voc rehab, tax exemptions and other 
benefits that the veteran needs.
    Very often, these are people who, due to serving their country are 
no longer able to support their families or otherwise return to their 
former lives. There was a family stationed at West Point. This family 
had, I believe 8 children. The officer was in the reserves and was 
being deployed to Iraq. He was an engineer as a civilian, making a good 
salary. Of course, being deployed changed all that. West Point didn't 
have quarters for the family causing them to live off base. The 
American Legion had to take this family under its wings and help house 
and feed them.
    Many of our veterans are reservist or National Guard activated to 
federal duty. When they are deployed they leave behind families and 
jobs. Many return with injuries, physical and emotional and are unable 
to assimilate back into their former lives due to their post service 
disabilities. The delay in the adjudication of their claims put their 
lives on hold. Monetary benefits and vocational rehabilitation benefits 
granted in a timely manner could make a more seamless transition back 
into civilian life.
    There are some veterans who because of the delays get deeper into 
financial debt. They are paying for their medical care and do not 
receive any benefits from the VA until their claim is settled. In 
December 2005 we assisted a remarried widow with an application to have 
her Dependency and Indemnity Compensation restored. This entitlement 
was based on her first husband who was killed in action in WWII. Her 
benefits were not restored until March 2007 and only after we advised 
her daughter to contact her mother's congressman and the congressman 
contacted the VA. During the 15 months the claim was pending the widow 
became gravely ill. It appeared she might pass away before she received 
her benefits. This was especially frustrating because it was noted in 
VA records on May 11, 2006 that her benefits should be administratively 
restored.
    Now to defend the Veterans Administration, their staff in the New 
York Regional office was close to 300 around 3 years ago. Now it's 
around 100 due to a hiring freeze, plus their work load has increased 
because of the war in Iraq. They have now started to hire again. 
However many people are retiring, Taking with them their experience. VA 
claims processing is not an easy job. It takes years of working with 
these claims and training to get the experience to rate a good claim.
    Two quick examples from Iraq veterans:
    An Iraq veteran was discharged May 31, 2006. The VA received a 
claim for several conditions on June 1, 2006. It was noted on the claim 
he was an Iraq veteran. The claim was still with the predetermination 
team at least until March 5, 2007 as per the American Legion. On May 7, 
2007 the VA granted one of the claimed conditions (10 percent 
tinnitus). All other claimed conditions were deferred and are still 
pending 15 months later.
    An Iraq veteran with 2 periods of active duty was last discharged 
December 10, 2005. The VA rec'd claim May 18, 2006. As per the American 
Legion the claim was with the VA predetermination team as of December 
4, 2006. As per the American Legion February 12, 2007, the claims file 
in front office for continued development. As per the American Legion 
April 16, 2007 the claim was with predetermination for continued 
development. The claim is now 16 months old.

                                 <F-dash>
           Prepared Statement of R. Michael Suter, Chairman,
            Veterans Affairs and Rehabilitation Commission,
                American Legion, Department of New York

    Mr. Chairman and Members of the Subcommittee:
    Thank you for this opportunity to present The American Legion, 
Department of New York's views on The Personal Cost Of The Claims 
Backlog. The American Legion, Department of New York commends the 
Subcommittee for holding this Field Hearing to better understand the 
impact the Department of Veterans Affairs (VA) claims backlog has on 
New York State veterans, not unlike other states in this great nation, 
but also to put an individual face and a name to the numbers and 
percentages normally discussed.
    As more troops return from the war, brain injuries are a growing 
burden--for the veteran, for the few programs to treat them, and for 
taxpayers who pay for their disabilities and care. These American 
Patriots have gone off to war to defend and protect our way of life 
such as the freedom to speak at this hearing. They have lost body 
parts, eyesight, incurred brain damage, and, of course bear the stigma 
of posttraumatic stress disorder (PTSD). Doctors are finally realizing 
the fact that traumatic brain injuries (TBI) are masking or overlapping 
the PTSD symptoms and must be treated together.
    Our estimate, when you add all disability compensation and pension 
dollars received by disabled veterans here in New York, would average 
out to be around $1,039 per veteran per month. Based on that estimate, 
each veteran waiting and waiting and waiting for a decision on his or 
her claim is losing roughly that same dollar amount monthly. These 
veterans will eventually get their disability compensation retroactive 
back to their date of claim, however, in the mean time, their bank will 
not defer the house mortgage or car payment, the grocer won't give them 
credit until they receive their compensation just because the Federal 
Government takes 6 months, 12 months, 1\1/2\ years or 2 years or even 
longer to adjudicate and award their claim.
    Currently The American Legion, Department of New York holds a Power 
of Attorney (POA) on 22,386 compensation and pension claims. The 
following is a breakdown of the claims status:

    <bullet>  Buffalo VARO--Claims pending, 1,751; claims adjudicated, 
11,042
    <bullet>  New York VARO--Claims Pending, 1,450; claims adjudicated, 
8,143

    The following data reflects a breakdown of adjudicated claims with 
American Legion POA by the disability ratings:


--------------------------------------------------------------------------------------------------------------------------------------------------------
                 Disability Ratings                    0%    10%      20%      30%      40%     50%    60%    70%    80%   90%   100%     IU      Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
Buffalo VARO                                          48    2,742    1,836    1,428    1,334    712    614    319    164   57    873    1,115    11,042
--------------------------------------------------------------------------------------------------------------------------------------------------------
New York VARO                                         32    1,884    1,090    1,074      803    608    493    295    176   64    891      733     8,143
--------------------------------------------------------------------------------------------------------------------------------------------------------


    The VA is in the process of establishing centralized Virtual 
Information Centers (VIC) to answer the public contact phone inquires. 
They are also in the process of consolidating the processing of all new 
and reopened non-service connected pension and death pension claims to 
centralized Pension Maintenance Centers.
    There are 3 Pension Maintenance Centers; Philadelphia, Milwaukee, 
and St. Paul. They have been permitted to hire a significantly higher 
number of employees (50-100) to increase their staff with the 
anticipation of consolidating pension claims at these centers. This 
restricts the number of new hires for the Regional Offices that are in 
need of increased staffing to reduce their claims backlog and maintain 
an experienced staff to meet the claim needs of veterans, their 
survivors and dependents.
    There are 700 rating claims from the New York Regional Office 
(NYRO) being brokered out to other RO's for ratings in October. 
Approximately 1,100 pension claims (190 death pension) have been 
brokered out from the NYRO to the Pension Maintenance Center at the 
Philadelphia Regional Office.
    There was a hiring freeze implemented at the New York Regional 
Office from 2001 until January 2006. During FY 2006, 42 employees (24 
percent of the staff) left the NYRO and 27 employees were hired. 
Staffing and experience continues to be a major concern at the NYRO. 
Approximately 60 percent of the Veterans Service Center staff has less 
than 2 years experience.
    The number of employees in the veteran's benefits and service 
section of the RO was approximately 130 in April 2007. This is the 
section that handles the claims' process. The NYRO FTE ceiling is 
approximately 170. An increase of 40-50 additional employees in the 
immediate future would set in to motion what we believe is needed to 
reduce the claims backlog and maintain it at a workable level. It will 
take new employees 6 months to 2 years to obtain the job knowledge and 
expertise to become proficient in all expects of their job 
responsibilities. However, progress should be seen within the first 6 
to 9 months after their initial training is completed. Therefore, it 
would be beneficial to have staffing increases at the Regional Offices 
that need additional personnel the most due to hiring freezes and heavy 
claim volume. Increased staffing will result in the more timely placing 
of veterans and survivors claims under control (mail), reduced time in 
the claim development process (gathering evidence, exams, etc.), having 
claims ready to rate and the experienced personnel needed to process 
the ratings, and enough staff to promptly process the awards which is 
the final step in the claims process.
    The claims backlog personally affects veterans and their families 
by delaying their monetary award and a better quality of life. After 
returning from serving their country many veterans find it difficult to 
find or maintain employment and some are at risk for becoming homeless. 
The claims process for many veterans is stressful and difficult to 
understand. They are unsure and confused between the Department of 
Defense (DoD) and VA.
    The claims backlog also personally affects the veteran's 
entitlement to additional benefits. Completion of the awards process in 
many instances results in providing additional entitlements to veterans 
and their dependents, such as:

    <bullet>  Free healthcare for veterans receiving care for service 
connected disabilities
    <bullet>  Veterans with service connected disabilities rated 50 
percent or higher receive free healthcare
    <bullet>  Vocational Rehabilitation: technical training, education, 
assistance in job training and placement
    <bullet>  VA life insurance: eligibility for veterans who are 
service connected
    <bullet>  Specially adaptive housing
    <bullet>  Automobile grants
    <bullet>  Disabled veterans are entitled to 10 points preference 
for civil service jobs
    <bullet>  Additional allowances for dependents when the veteran's 
award is 30 percent or higher
    <bullet>  ChampVA medical coverage for dependents of veterans who 
are 100 percent totally and permanently disabled
    <bullet>  Real Estate Tax Exemption eligibility in many states

    Better outreach to our service men and women is monumental in 
helping them to understand the claims process, the difference between 
DoD and VA and how and where to obtain the evidence they need. For 
today's newest veterans this should be done on their return from being 
deployed.

    Heroes to Hometown. An American Legion program designed to reach 
out to severely disabled soldiers and their families as they transition 
from military service to their civilian community. Through the American 
Legion representative at the Military Severely Injured Center located 
in the Pentagon, severely injured servicemembers can request transition 
assistance from the American Legion after leaving service. The American 
Legion has been involved in the Heroes to Hometown program since Past 
National Commander Bock signed a Memorandum of Understanding (MOU) with 
the DoD in July 2006.
    On March 6th 2007 The American Legion signed an MOU with Walter 
Reed Army Medical Center that will significantly alleviate the long 
backlogs in out-processing wounded servicemembers. The American Legion 
provides a representative to the Physical Evaluation Board at Walter 
Reed to assist in the transition of wounded servicemembers from the 
Department of Defense to the Department of Veterans Affairs. This is a 
natural extension of our Heroes to Hometown program.
Examples of the Impact the Claims Backlog Have Around New York
    In Clinton County a nursing home pension case for a Widow of a WWII 
Veteran was filed on September 30, 2003. The claim was lost and had to 
be resubmitted to the VARO on August 13, 2004. The claim was lost again 
and had to be to be resubmitted to the VARO April 8, 2005 and a request 
to reopen the claim was faxed to the VARO on November 20, 2006. During 
a conversation with the VARO on September 27, 2007 it was determined 
that the claim had been retired with no action taken by the VA. At no 
time was this claim adjudicated and the widow was never notified of 
this action. The VARO is reopening the claim. This WWII widow has 
waited over 4 years with no result. The impact this non-decision has 
had on this widow is unforgivable. She can't afford any outside 
activities, in fact after paying for a telephone and a television she 
can't even afford a snack to take to her room. Fifty dollars ($50.00) a 
month doesn't go very far.
    In Nassau County an eighty (80) year old WWII veteran is being 
treated for PTSD. In February 2006 he filed an increase for his service 
connected hearing loss and provided private medical evidence. This 
veteran also suffers from several non-service connected conditions. 
After 18 months the VARO is still ``working on his case.'' An increase 
could possibly eliminate his VA prescription co-payments this veteran 
must currently pay.
    In another case, a surviving widow, who lost her home in New 
Orleans, due to Hurricane Katrina, traveled to New York and moved in 
with her son on Long Island. It soon became apparent that she could not 
be left alone and she needed some one to care for her all day while her 
son was at work. The son found an assisted living facility nearby and 
began using up the widow's savings to provide her with a safe place to 
live where someone was always around to help. After 14 months the 
widow's savings were exhausted and the VA determined the widow was 
eligible for death pension with aide and attendance (A/A). VA then 
decided the widow was incompetent. Now the widow will face an 
additional delay (in months) while the VA decides whom to appoint as 
her Fiduciary.
    Carl E. Munson of Yonkers filed to reopen his Pension Claim on 
February 15, 2006, to switch his fixed 306 pension to the Improved 
Pension. All required paper work was provided at that time. On December 
2006, Carl received a letter from Philadelphia RO stating he was on the 
fixed 306 Pension. It only took 10 months for the VA to agree with Mr. 
Munson that he was currently on a 306 Pension. Again in February 2007, 
Mr. Munson resubmitted his request to be switched to the Improved 
Pension. He called the VARO on August 14, 2007 to see if anything was 
happening with his claim and was told claim should be decided soon. As 
of today, Carl Munson still has heard nothing.
    Nursing Home pension claims submitted to the VARO ready to rate are 
taking in excess of 5 months to award. Pension for veterans or 
surviving spouses in assisted living facilities are taking a minimum of 
12 months to award.
    Another Yonkers resident and Gulf War One veteran first entered the 
military in August 1988 and stayed until August 1991. He remained a 
full time Reservist from August 1991 until February 1994 when he went 
back on active duty until September 1996. He was deployed to the Gulf 
War from August 1990 until May 1991. He suffered symptoms of a heart 
attack in May 1991 in the Gulf War and was hospitalized on board a 
Naval Hospital Ship, U.S.S. Mercy, for approximately 1 month. He was 
first diagnosed with Cushing's disease in 1994. He originally filed a 
claim in late 1996, shortly after his discharge.
    Since then, he has had multiple doctors evaluate him, multiple 
tests run and rerun and still has not been provided a clear diagnosis. 
Different doctors have said he has Cushing's disease and others have 
said fibromyalgia, while others have said muscle deterioration from an 
unknown etiology. He currently has muscle weakness in all 4 
extremities, tenderness, extremely persistent aching pains, and is 
easily fatigued after only brief ambulation. He has persistent 
hyperglycemia and his CPK is elevated. During May 15 and 16, 2006 he 
underwent a study at the VA War-Related Illness and Injury Study Center 
in New Jersey. The Study Center found the following: probable carinoid 
syndrome, sleep disturbance, left shoulder pain, rash, mood problems, 
anxiety disorder, NOS and adjustment disorder to include depression, 
chronic pain, chronic fatigue, elevated blood sugar, elevated liver 
function test, and poor functional physical basis due to the multiple 
disabilities.
    This veteran has 3 small children and a wife. Due to his inability 
to work because of his disabilities, he has been evicted from his 
apartment, been separated from his wife for several months, and has 
lost nearly everything else. Although he has tried to work, he has not 
been able to continue due to his numerous disabilities from service. 
When he applied originally in 1996, less than a year after service, his 
disabilities included hearing loss, chest wall pain (claimed as a heart 
condition), right knee and leg cramps, migraine headaches, depression 
with memory loss, sinus condition, thyroid condition, asthma/hay fever, 
and skin condition. All were denied. He was told to apply for each 
individual medical problem versus Gulf War Syndrome. Now almost 11 
years later, his claim is still under appeal.
    Spencer P. Kennedy from Steuben County is a 60 year old U.S. Navy 
Veteran who was injured in 1966 when he sustained a compression 
fracture and dislocation of his spine. He underwent a surgical 
procedure to fuse this injury by removing bone from his left hip and 
placing it in the vertebrae. He was honorably discharged in 1971 after 
being on medical retirement for 5 years and appearing before a Navy 
Medical Board. He was rated at 40 percent disabled and then rated the 
same at the VA.
    At about age 50, he began to experience chronic pain, mobility 
problems and limitation of movement to the degree that he sought help 
at VA. Doctors prescribed pain medications and continued to address his 
situation. In 2003 he began having more severe pain and mobility 
problems and was referred to an Orthopedic Surgeon, who ordered an MRI 
and X-Rays. The doctor determined that he was not a candidate for 
surgery and recommended pain management as an alternative. In 2005 and 
2006, the same Orthopedic Surgeon rendered the same conclusions based 
on MRI's conducted by the VA that there is severe post-traumatic 
degenerative arthritis present in his lower and upper spine. Treatment 
letters were included in the VA file. Mr. Kennedy's pain and limitation 
of movement continued getting worse and the pain medications have had 
to be adjusted several times.
    In March 2006 Spencer filed a claim for increased compensation due 
to his back condition. All pertinent medical records from non-VA 
doctors were sent to the VA to be included in his Claims file for 
review by claims examiners at the VARO. He also sent the RO a number of 
personal statements and letters from friends and medical professionals 
supporting his claim for an increase in compensation for the back 
disability.
    In May 2006, while exiting his vehicle, his legs gave out and he 
experienced severe pain, falling to the ground. During the next 7 
months, he fell under similar circumstances 6 more times as the 
numbness began to return to his legs and knees. He now must use a cane 
for stability purposes.
    Mr. Kennedy waited 6 months before he was scheduled for a 
Compensation & Pension (C&P) examination on September 20, 2006. His C-
file, which contained medical & lay statements concerning his back 
disability, was not provided to the C&P examining physician. A Notice 
of Disagreement (NOD) was filed concerning the results of the C&P 
examination on November 30, 2006.
    In January 2007, another C&P Exam was requested which took 8 months 
(August 31, 2007) to schedule. He is scheduled for an informal hearing 
at the VARO on October 11, 2007 to discuss his claim. ``In all of this, 
I feel as though those persons making the decisions related to my claim 
are not reading or placing any weight on all of the evidence that has 
been provided,'' Mr. Kennedy has stated, ``I feel as though the VA is 
dragging its feet and if they wanted to, they could adjudicate my 
claim.'' Mr. Kennedy honestly believes he has proven that he has 
serious pain, mobility and mental issues that VA could take into 
consideration. He is totally frustrated by this lack of adjudication. 
``I am frightened that I will soon become completely incapacitated and 
will lose everything. I am losing control slowly and continue to have 
more and more pain and am in serious financial difficulty. This whole 
thing has impacted my life tremendously in a negative way. The VA has 
the information and all the evidence necessary. All they (VA) need to 
do now is to READ the damn file and make a decision.'' In August 2006, 
Spencer was forced to stop working, as he was unable to walk long 
distances, lift more than 10 pounds, or stand for long periods of time. 
He has used up all his credit and equity and personal savings to pay 
his bills. He is unemployable as no company wants to hire someone with 
a severe back problem.
    Addressing Congress for a final time before stepping down last week 
VA Secretary Nicholson pointed to persistent problems between the 
Pentagon and VA in coordinating care for veterans while struggling to 
reduce backlogs in disability claims from Iraqi war veterans. ``Current 
efforts won't be enough to cut down the wait times our veterans are 
being required to endure,'' Nicholson said, ''In fact, VA can influence 
the output--claims decided--of its work product, but it cannot control 
the input--claims filed.''
    Unlike most all of the failed challenges of the past, this is one 
challenge we can correct. We must remember the promises made many years 
ago to ``care for those who shall have borne the battle and for his 
widow and orphans'' as President Abraham Lincoln proclaimed. We are 
still paying for WWII and every war/conflict this nation has gone 
through since. Don't continue to budget next year what should have 
already been paid pre-2007.
Conclusion
    The best way to help veterans is to fix the entire VA claims 
adjudication system. Piecemeal solutions do not work and should be 
avoided. The VA work measurement system should be changed so that VA 
regional offices are rewarded for good work and suffer a penalty when 
consistent bad decisions are made. Managers, attorneys, and law judges 
at the Board of Veteran Appeals should be rewarded for prompt careful 
work and should be penalized when they make bad decisions. American 
Veterans who seek VA disability benefits deserve better treatment than 
what they currently receive from the VA.
    Thank you again, Mr. Chairman, for allowing The American Legion, 
Department of New York to present comments on these important matters. 
As always, we welcome the opportunity to work closely with you and your 
colleagues to reach solutions to the problems discussed here today that 
are in the best interest of America's Veterans and their families.

                                 <F-dash>
                   Prepared Statement of Alex Lazos,
                         Harriman, NY (Veteran)

    My name is Alex Lazos. I am a former Marine Corps combat veteran 
and attained the rank of Sergeant during my 5 years as a U.S. Marine. I 
was part of the initial Operation Iraqi Freedom initiative which became 
Operation Enduring Freedom and is still going on as we meet here today.
    I enlisted in the Marines directly after graduating high school in 
1999 and was honorably discharged in August 2004.
    After returning from Iraq, I was experiencing severe mental and 
emotional disturbance which gradually worsened with each passing month. 
After I was discharged, my grandfather, John Lazos, who was an Army 
paratrooper in World War II and a Purple Heart recipient encouraged me 
to seek help from the Veterans Administration. At the time, I wasn't 
even aware of what the VA had to offer or that its services would be 
available to me. Nobody told me prior to being discharged or after 
being discharged. I was just handed my DD-214 and told ``thank you, 
your enlistment is over.''
    I was immediately diagnosed with severe combat related 
posttraumatic stress disorder, though the services and treatments at 
the time put in front of me were vague and incomplete. The initial 
process of registering with the VA and trying to ``navigate'' the 
system was extremely frustrating, especially trying to get to talk to 
someone face-to-face. It seemed every phone call I made would result in 
me being given another phone number. When I was finally given 
appointments, it would end up having nothing to do with what I called 
about. I would be scheduled for a physical when I had a psychiatric 
complaint, and the medical provider wouldn't even know why I was there 
to see them. This was going on continually. I got bounced from one 
place and person to the next, meanwhile my symptoms and quality of life 
worsened and I became more and more depressed and suicidal.
    It was not difficult to become disillusioned and downhearted 
considering it appeared there was no prospect of getting any help. By 
June 2005, I decided to leave New York and try to re-build my life, 
hoping a change of scenery would be the answer. I chose to go back to 
North Carolina where I had been stationed. It was a terrible decision 
but at the time I was not in the right state of mind to make any good 
decisions and it only made things worse. In August 2005, I went to the 
North Carolina VA center and filed my initial claim for benefits. I 
remember being told ``it is a very long process and to expect to get 
denied the first couple times''.
    By September 2005, I was evicted, homeless, severely depressed and 
attempted suicide. I returned to New York and reentered the VA 
healthcare system once again seeking help.
    From then until September 2006, I was in and out of inpatient 
psychiatric wards and drug and alcohol detoxs, amassing legal problems, 
unable to find or maintain work and my life and condition continued to 
spiral down until I hit bottom. Once again considering suicide as a 
viable option and with my life completely out of control, I entered the 
Montrose VA where I would remain for the next 11 months as a 
psychiatric inpatient.
    In January 2007, I re-filed my original claim and found out the VA 
had given me a rating of ZERO percent service-connected disability from 
my prior claim. I was treated primarily for my posttraumatic stress 
during my stay at Montrose and as the date for my discharge from the 
Montrose neared, my claim had still not been processed, yet I have been 
diagnosed with severely disabling PTSD and had been in their system for 
going on 3 years.
    You can't imagine the panic that set in, wondering where or how I 
would live and how I could continue my recovery process. I started 
writing to all the elected officials and Congressman John Hall's office 
got one of my many letters and contacted me. Thanks to his 
intervention, my claim was expedited and by August 2007, 3 years after 
I had first filed my claim, I started to receive my benefits.
    I can't begin to tell you how the quality of my life has improved. 
I can live independently and support myself while focusing on my 
recovery and treatment and I can finally start rebuilding my life 
that's been on hold for over 3 years.
    I don't understand why it had to take so long to get help. I don't 
understand how the VA could instantly recognize that I have a seriously 
disabling condition as a result of my military service yet took 3 years 
to process my claim and compensate me for it. My experience with the VA 
and the claims process has been a battle in and of itself, and having 
returned home from one war to fight another one with an organization 
that was put in place with the sole purpose to serve veterans like 
myself is incomprehensible still to me. I also believe that full and 
complete funding should be granted to the Veterans Administration in 
support of increasing space and duration of programs, an increase in 
available services and manpower, and the implementation of long-
lasting, effective changes to better serve and benefit our ever-growing 
veteran population. The claims process needs to be expedited for 
everyone, and funds to pay disability and compensation benefits need to 
be made available.
    I see a lot of finger pointing and blame going on in politics today 
over this war and the results of a decision made in 2003. Well that was 
4 years ago, the war is still going on and assigning blame isn't going 
to change a thing. This isn't a time for blame, it's a time for change, 
and unfortunately whereas war can be declared overnight, the results 
will last a lifetime. And for the servicemen and veterans whose lives 
literally hang in the balance, these issues need to be immediately 
addressed.
    And despite my relief at having my life back, the guilt that I feel 
that I've gotten these benefits while so many of my fellow veterans 
continue to suffer is only comparable to the survivor's guilt that I 
feel for surviving Iraq while so many haven't.
    I would like to reiterate something often lost in the endless 
shuffle and re-filing of paperwork and political bickering: Generations 
of Americans have volunteered to make extreme personal sacrifice 
sometimes at the cost of their own lives to defend and ensure the 
integrity and future of the United States of America and as veterans, 
we were asked to pick up a weapon and lay down our lives for our 
country without question. Shouldn't our treatment on returning home 
reflect nothing less? I feel that our troops deserve the same level of 
loyalty and commitment from the Veterans Administration as we were 
asked to give when we put on our uniforms and swore an oath to our 
country.
    Thank you and God bless the United States of America and the men 
and women who protect it.

                                 <F-dash>
                   Prepared Statement of Ted H. Wolf
      Pomona, NY (Veteran), as presented by John Rowan, President
                      Vietnam Veterans of America

    My name is Ted H. Wolf. I'm a Vietnam veteran. I served in Vietnam 
from September 1966 through August 1967. I was in a transportation unit 
stationed at the Newport facility on the Saigon River. One of the 
operations of the facility was the handling of Agent Orange drums. As 
is well known and well documented, Agent Orange is the code name for a 
herbicide developed for the military. The purpose of the product was to 
defoliate trees and shrubbery where the enemy could hide. My exposure 
to broken drums containing Agent Orange caused me to become inflicted 
with prostate cancer.
    My prostate cancer did not become ``active'' until August 2002. 
However, even before then my family and I experienced other effects of 
the Agent Orange. In the 1970s, my wife suffered 7 miscarriages. 
Furthermore, my only living daughter was born with a hemangioma. We now 
believe that both of these events were related to my exposure to Agent 
Orange.
    My prostate cancer was diagnosed by a urologist in August 2002. I 
immediately went to Memorial Sloan-Kettering Cancer Center for further 
information, and eventually treatment. One way in which doctors rate 
the aggressiveness of prostate cancer is through a Gleason score. A 
patient is graded on a scale of 1-10. I was diagnosed with a 9. At 
Sloan-Kettering, I was treated with localized radiation as well as 
hormone therapy.
    Sometime during the course of my treatment, I investigated and 
found out that Agent Orange was a cause of prostate cancer. I submitted 
an application to the Veterans Administration for disability 
compensation on account of my diagnosis of prostate cancer. In April 
2003, after enduring a physical and sending my medical records from 
Memorial Sloan-Kettering, I was granted a disability rating of 100 
percent.
    In February 2004, my disability rating was lowered to 40 percent. I 
was informed that this reduction in benefits was on account of the fact 
that I was not utilizing the required number of pads for leakage each 
day and also because my PSA score (a number used to determine the 
presence of prostate cancer) had declined. On account of these 2 
factors, the Veterans Administration deemed that I was in remission.
    I did not feel that this was fair, but I did not have the strength 
to commence an action. In preparing for this hearing, however, I spoke 
with my oncologist at Memorial Sloan-Kettering, Dr. Michael Morris. Dr. 
Morris explained to me that the Veterans Administration's reasons for 
reducing my benefits were absurd. First, he said there is absolutely no 
correlation between number of pads used for leakage and the severity of 
prostate cancer. Second, he explained that although my PSA number had 
decreased, I was not actually in remission. Rather, he explained that 
there is a residual effect from hormone therapy, which keeps the PSA 
down for approximately 2-3 years. What is disturbing is that the 
Veterans Administration handled my case without having any knowledge of 
my illness and it made decisions without any basis in fact.
    In May 2006, my PSA tripled indicating that the disease was still 
active. Bone scans taken in August 2006 indicated progression to 8 
different spots on my skeleton. At this point, I contacted the Veterans 
Administration. They asked me to send proof which I did, and they then 
responded by saying that it would be a minimum of 3-4 months before any 
action was taken on my case.
    The county in which I live, Rockland County, New York, maintains an 
office of Veterans Affairs. I contacted them for assistance, and they 
recommended that I contact my Congressperson. The office of the 
Congressperson attempted to assist me, however, she was defeated in the 
November 2006 election and therefore no real action took place.
    In January, I contacted the newly elected Congressperson, 
Representative John Hall, and his office rendered immediate assistance. 
The person in his office who assisted me was Lisa DeMartino. She worked 
miracles and within 3 weeks, the Veterans Administration increased my 
compensation and gave me back compensation from June 2006.
    My concern is that without the assistance of wonderful people at 
the congressional level, the average veteran is forced to wait a long 
period of time to get any assistance. I pay for my own healthcare. Our 
family rate is $14,000 a year, and I am able to select where I want to 
be treated for my illness. Under no circumstances would I want to be 
treated by the Veterans Administration. I do not believe that their 
level of competency for treating my disease would have reached an 
acceptable level. I have no confidence in them, especially in light of 
the fact that they lowered my ini-

tial benefits, thereby showing that they had no idea of how prostate 
cancer functions.
    My concern is for the young veterans returning from Iraq and 
Afghanistan. The backlog that they face in receiving care is 
unconscionable. Competent healthcare should be available to all 
veterans. We currently have in place the Medicare system which allows 
one to select his/her own doctor. This would allow a veteran to find 
medical care close to home without having to travel to a VA facility. 
The closest VA facility may be many miles away, perhaps requiring an 
overnight stay.
    The Veterans Administration has for too long been allowed to defend 
its bricks and mortar policy of large facilities, which until the war 
were inadequately used. I feel that the American serviceman could best 
be served by being able to avail themselves of the best private care 
available.
    I want to thank this Committee for investigating the Veterans 
Administration and the healthcare being provided to our returning 
veterans. A service person who has volunteered to serve his country 
should receive the best possible care available regardless of cost. 
Their benefits, if unable to continue to work, should be such that they 
are being paid a living wage to take care of their families. Those that 
have given so much should not be forced to continue to pay for their 
willingness to serve their country. Our troops who served with pride 
and distinction should not have to beg for adequate healthcare. It is 
our continued responsibility to provide the best healthcare possible 
whether within the VA heath care system or the private sector.

                                 <F-dash>
   Prepared Statement of Eddie J. Senior, West Harrison, NY (Veteran)

    Good morning. I would like to introduce myself. My name is Eddie J. 
Senior. I come before you today in the hope of getting the much needed 
help with regards to my disability claim as well as the claims of many 
other Veterans. I also wish to share with you my personal experiences 
with the Veterans Administration and the hardships and frustrations of 
the VA Claims Backlog.
    I served in the Army from January 1985 to March 1993. I was 
deployed for Operations Desert Shield and Desert Storm in 1991 with the 
101st Airborne Division. Up until that time I never had an issue with 
my health. I served as a helicopter crewmember which required a yearly 
flight physical and I was considered to be in excellent health. Shortly 
after returning from the Persian Gulf my health began to decline. The 
Army doctors were unable to properly diagnose my illnesses. Over a 
short period of time I became unable to perform my duties as a Sergeant 
in the Army and because of my health problems, was forced to leave the 
service.
    After leaving the service my symptoms persisted and my health 
continued to decline. I eventually received a letter from the VA urging 
me to come in for an examination because of my service in the Persian 
Gulf. During my initial visit I was examined by a VA doctor and was 
asked to talk about my condition and symptoms. He quickly dismissed 
them as something that was ``all in my head'' and that I was fine. I 
continued to go to the VA Hospital in the Bronx, N.Y. and received 
several tests and examinations. It was during this time that I was 
advised by the personnel in the compensation office where my exams were 
scheduled, that I should file a claim with the VA based on my current 
condition. They suggested that I do it as soon as possible considering 
the long amount of time it would likely take to receive a decision. My 
initial claim was filed in early 1995.
    In October 1995 I noticed a lump in my neck. I immediately went to 
the VA Hospital emergency room. After being told by the doctor that I 
should not have waited so long to come in I explained to him that I 
have been coming to the VA hospital for about 8 months and that I've 
been told over and over that there was nothing wrong with me. After 
further examinations and a surgical biopsy on the lump it was 
discovered that I did in fact have something wrong and that it was very 
serious. The surgeon who did the biopsy said that she saw something 
that she had never seen before. She requested that a specialist be 
bought in to help. The second doctor performed 2 more surgeries, the 
first to diagnose, and the second to remove the cancer that had been 
found. The third and final surgery, scheduled for 1\1/2\ to 2 hours, 
took 9\1/2\ hours because of the severity of the cancer. During my 
postoperative care the surgeon explained to me what he had found and 
that he had never seen a case of thyroid cancer as severe as mine. I 
had hoped this would solve my health questions but soon realized that 
this was not the case. My symptoms, which include fatigue, headaches, 
respiratory and psychological problems continued and worsened.
    Prior to the discovery of the cancer I was denied VA benefits for 
my symptoms for lack of evidence proving service connection. Soon after 
the diagnosis of the cancer I was awarded a nonservice connected 
improved pension. On the award letter for the pension it was stated 
that I was being awarded 50 percent for Depressive Disorder, 100 
percent for Thyroid Cancer and Fatigue, Dizziness, Concentration 
Difficulties and headaches. (*See Exhibit #1) I was given the 50 
percent Psychological rating as a result of a C&P exam that was given 
to me in December 1997. Unknown to me the examining VA doctor stated in 
his report that this condition was ``directly associated'' with my 
military service. (*See Exhibit #2) This should have given me a 
``Service Connected'' rating of 50 percent for this symptom. I 
contacted the VA regional office and was told that the pension was the 
best decision that I could get.
    It wasn't until I contacted the Westchester County Veterans Service 
Office and reviewed my records, both in-service and VA medical, with 
the Veterans representative that I was made aware that the decision and 
rating I was given was incorrect.
    I re-submitted my claim to the VA in August 2005 stating the facts 
and re-submitting evidence related to my claim. Approximately 1 year 
later I received another denial. My service officer then assisted me 
with submitting a Notice of Disagreement. After waiting almost another 
year I was scheduled for my second C&P exam at the VA Hospital in May 
2007. After waiting for the exam report to be completed I requested a 
copy from the VA I read through it and noted statements made by the 
examining doctors where they concluded that my conditions started and 
or were caused by my time in service. (*See Exhibits #3, 4, 5)
    With this information in hand I truly believed, as did my Veterans 
Service Officer, that I would receive a service connected disability 
rating of 100 percent retroactive to my date of discharge. 
Unfortunately this was not the case. I recently received an award 
letter from the VA notifying me of their decision to grant me a 60 
percent service related rating for Chronic Fatigue Syndrome.
    While waiting for a decision, and on agreement with my Veterans 
Service Officer, I contacted the office of Congressman John Hall to 
seek assistance with this matter. A letter on my behalf from 
Congressman Hall's office was given to the VA asking them to review my 
records including documentation of medical records indicating service 
connection for psychological conditions that were earlier documented by 
the VA, also service connection dating back to my date of discharge 
with regards to the opinions of the VA medical doctors. This letter was 
a reflection of the beliefs of my Veterans Service Officer that this 
claim is not being given a proper rating or retroactive date.
    The recent decision letter dated Sept. 7, 2007, made no mention of 
the Psychological condition and the disability rating of 60 percent for 
the Chronic Fatigue Syndrome was only backdated to September 2005 
instead of March 1993. This decision will now require yet another 
appeal. The information in my claim file clearly states, on VA medical 
doctor reports that my condition manifested in service, was caused by 
my service and persists today to a degree that is considered totally 
disabling according to VA regulations. As noted on the letter of 
decision page 3, it reads: The examiner also stated: ``That your 
Chronic Fatigue Syndrome accounts for your array of muscle pain, joint 
pain, difficulty concentrating, respiratory problems and sleep 
disturbance.'' (*See Exhibit # 6) These are the same symptoms that I 
have been repeatedly denied service connection since my initial claim 
in 1995. (*See Exhibit #7) On page 4 of my 2007 C&P exam report it 
states in comment one that my symptoms in service are more suggestive 
of Chronic Fatigue Syndrome. (*See Exhibit #8) This statement proves 
that this condition was present while I was still in the service. I do 
believe that if these facts were recognized, a continued appeal on my 
behalf would not be necessary and I would have been awarded the correct 
disability rating and retroactive date. This is just an example of the 
frustrations experienced by many veterans who file claims with the VA.
    As I stated earlier, I find myself needing to file yet another 
appeal. This will only delay this process yet again. It has been 
explained to me that this appeal to the Board of Veterans' Appeals 
could and most likely will take approximately 2 more years to have my 
hearing with even more time for a decision. It is these kinds of delays 
that cause extreme frustration and stress as well as financial hardship 
for many Veterans.
    I have personally been waiting 12 years to settle this matter and 
hope by coming here today to speak about my case that I will be able to 
get the help needed to finally bring closure to my claim.
    In closing, I would like to thank you for your time and attention 
to this urgent matter of importance to myself and the many other 
Veterans who find themselves in the same situation. Thank you.

                                 <F-dash>
   Prepared Statements of Christopher and Angela Ryan, Ellenville, NY
               on behalf of Sergeant Eddie Ryan (Veteran)

    We are honored to introduce to you, our son, Marine Sgt. Eddie 
Ryan. He was proud, very proud to serve our country as a United States 
Marine. His first combat tour of duty in Iraq was during the first 
invasion, when Eddie served a machine-gunner. According to his fellow 
Marines, Eddie was highly motivated, fulfilled his job at an excellent 
level and was very brave and courageous in tough combat situations.
    Eddie then trained hard to become an elite Marine sniper. Out of 16 
of the best Marines picked from his battalion Eddie came in first place 
during the sniper endoc, a Marine skills test. Fourteen out of the 16 
never made the cut. Eddie never told us this out of his humbleness, his 
other Marines did. During Eddie's second combat tour of duty in Iraq, 
he was up for meritorious sergeant promotion after less than 2\1/2\ 
years of active duty. According to Major General Huck and the other 
Marines in his Scout Sniper platoon, our son was a ``highly regarded 
Marine'' in his battalion.
    Eddie was severely wounded on his second combat tour of duty in 
Iraq, April 13, 2005.
    After being in Landstuhl, Germany, for 5 days we went to Bethesda 
Naval Hospital in Maryland. For 5\1/2\ weeks we stayed in Bethesda. 
Eddie came out of his coma and the doctors recommended he be sent for 
intensive rehabilitation. We were warned by the families of other 
wounded soldiers that our jobs as caregivers would increase extensively 
under the VA. Eddie's care from the VA started at the Hunter McGuire VA 
in Richmond, Virginia, and we found out that this was true. But our 
question was why had our jobs had increased? Why, when our brave young 
men and women stand between us and our Nation's enemies, would wounded 
soldiers be welcomed home by a VA system that gives them substandard 
care?
    As parents of this wounded Marine with a severe traumatic brain 
injury, we wanted to do our best to give him the care that he so 
desperately needed and deserved; however, the staff not only wouldn't 
allow us to but refused to do it themselves. Eddie was fed by a belly 
tube and was totally dependent on the care of others. He missed several 
meals and when we brought this to light and held the staff accountable, 
we faced opposition.
    Eddie's condition deteriorated. His six-foot, one-inch tall body of 
solid muscle at 200 pounds went down to 166 pounds. He had no control 
of his bowels so he was in a diaper. He would sit in his own feces for 
hours because of the laziness of some of the staff who would just stand 
around and talk together at times when young Marines and soldiers 
needed immediate care. At times there would only be 2 nurses on a night 
shift responsible for the care for many so severely wounded.
    We had visiting hours from 11am to 8pm. We knew Eddie was not 
receiving the care he desperately needed but when we would come early 
or stay late to check on and assist our son, the staff would call 
security on us.
    The lack of care for Eddie became evident when his skin broke down 
under his tailbone and turned into a terrible bedsore, an area mom 
still fights with everyday to keep clean. The sore became infected and 
Eddie needed to be placed on an antibiotic I.V. drip for 6 weeks. 
Because of this we needed to wheel this tower around, holding up his 
therapies and slowing down progress when time was crucial.
    Our stay at the Hunter McGuire VA was not good. It was a horrible 
experience not only for us but for all the other parents and spouses 
that were in the TBI ward as well. There are other parents we still 
have contact with and share bad memories of the past with. The rooms 
had the stink of urine. We could go on and on.
    At this point and time, our issues are the lack of therapies we 
have for Eddie and the lack of home care. Eddie is rated for 24-hour 
home healthcare from an LPN, which he has never received to date.
    At times, Eddie has seizures but the VA sees no urgency in this. We 
received only personal care assistance and many days have no coverage 
at all, leaving Eddie and mom alone, unless dad takes off from work. We 
have asked the VA about this but to no avail.
    Neurologists and neurosurgeons have told us from the beginning that 
Eddie needs to work hard every day in rehab to regain as much as he can 
and that the first 5 years are critical. We asked the VA for more 
therapies but instead his VA doctors actually reduced his 45-minute 
physical therapy sessions from 5 days a week to 2 days a week. With 
help from Congressman Hinchey and Senator Clinton's office, Eddie was 
re-instated back to 5 times a week but that took 7 weeks to do that 
this summer. In the meantime, he missed out on hours of therapies 
during the most important phase of his rehabilitation.
    The VA gives Eddie 45 minutes for physical therapy 5 times a week, 
45 minutes of occupational therapy 2 times a week (some weeks less) and 
45 minutes of speech therapy 5 times a week.
    The doctors said Eddie was not even supposed to live. He not only 
survived but this young Marine sniper, our son, remembers his intense 
training in the Marine Corps and is displaying his tenacity in rehab. 
Eddie has made remarkable progress and yet the VA doctor that cut 
Eddie's therapies has never even examined Eddie, never personally 
evaluated Eddie, never had the decency to visit or meet this brave 
young warrior, a Purple Heart recipient with 2 combat tours in Iraq.
    Eddie's dream is to go back in the Marine Corps one day. As a 
family with many, many, witnesses, we are sad to say we have had to and 
continue to have to fight and battle with the VA for much of what Eddie 
is in need of.
    The VA should be there for these wounded warriors asking them and 
their families ``What do you need?'' or ``How can we help you and your 
family?'' On the contrary most times we stand on opposite sides of the 
fence.
    We as a family are asking Congress to change and address this.

                                 <F-dash>
                 Prepared Statement of Michael Walcoff
         Associate Deputy Under Secretary for Field Operations
 Veterans Benefits Administration, U.S. Department of Veterans Affairs
    Mr. Chairman and Members of the Subcommittee:
    Thank you for providing me the opportunity to appear before you 
today to discuss the Veterans Benefits Administration's (VBA) pending 
claims inventory and claims backlog.
    Today I will discuss the claims backlog and the challenges we face 
in providing timely decisions on veterans' claims for disability 
compensation. These challenges include the growth of the disability 
claims workload and the increasingly complex nature of that workload. I 
will also discuss some of the actions we are taking to improve claims 
processing and reduce the time veterans must wait for decisions, to 
include our efforts to expedite the processing of claims from 
Operations Iraqi Freedom and Enduring Freedom (OIF/OEF) veterans. We 
view these efforts as opportunities to achieve greater processing 
efficiencies and enhance our service to veterans.
Growth of Disability Claims Workload
    The number of veterans filing initial disability compensation 
claims and claims for increased benefits has increased every year since 
FY 2000. Disability claims from returning Afghanistan and Iraq war 
veterans as well as from veterans of earlier periods of war increased 
from 578,773 in FY 2000 to 806,382 in FY 2006, an increase of nearly 38 
percent. For FY 2007, disability claims receipts were up 4 percent 
through August compared to the same time last year. Additionally, VBA 
received a record high of 80,383 claims for a single month in August 
2007. This high level of claims activity is expected to continue over 
the next few years.
    The primary factors leading to the sustained high level of claims 
activity are: Operation Iraqi Freedom and Operation Enduring Freedom; 
the addition of type II diabetes as an Agent Orange presumptive 
disability; more beneficiaries on the rolls with resulting additional 
claims for increased benefits; improved and expanded outreach to 
active-duty servicemembers, guard, and reserve personnel, survivors, 
and veterans of earlier conflicts; and implementation of Combat Related 
Special Compensation (CRSC) and Concurrent Disability and Retire Pay 
(CDRP) programs by the Department of Defense.
    Ongoing hostilities in Afghanistan and Iraq are expected to 
continue to increase VA's compensation workload. Veterans of the Gulf 
War Era, which includes veterans who served in Afghanistan and Iraq, 
currently comprise the second largest population receiving compensation 
and pension benefits after Vietnam Era veterans. In 2001, a change in 
law added type II diabetes mellitus to the list of presumptive 
disabilities associated with Agent Orange exposure in Vietnam. This 
change prompted a surge of new claim receipts and added to the increase 
in veterans on VA's rolls.
    The number of veterans receiving disability compensation has 
increased by almost 400,000 since 2000--from just over 2.3 million 
veterans to nearly 2.7 million at the end of FY 2006. This increased 
number of compensation recipients, many of whom suffer from chronic 
progressive disabilities such as diabetes, mental illness, and 
musculoskeletal and cardiovascular diseases, will continue to stimulate 
more claims for increased benefits in the coming years as these 
veterans age and their conditions worsen. Reopened disability claims, 
which include claims for an increase in disability percentage, 
currently comprise nearly 60 percent of VBA's disability claims 
receipts.
    VA is committed to increasing outreach efforts to active-duty 
personnel. These outreach efforts result in significantly higher claims 
rates. Original claims receipts rose from 111,672 in FY 2000 to 217,343 
in FY 2006, a 96 percent increase. We believe this increase is directly 
related to our aggressive outreach efforts and we believe this trend 
will continue. Separating military personnel can receive enhanced 
services through our Benefits Delivery at Discharge (BDD) Program, 
which I will discuss in more detail a little later. On either a 
permanent or itinerate basis, VBA staff members are now stationed at 
140 military discharge points around the nation, as well as in Korea 
and Germany.
    Combat-Related Special Compensation (CRSC) and Concurrent Retired 
and Disability Pay (CRDP) further contribute to increased claims 
activity for VBA. It is now potentially advantageous for the majority 
of our military retirees to file claims with VA and to receive VA 
disability compensation, since their waived retired pay may be restored 
and not be subject to waiver in the future under these new DoD 
programs.
Complexity of Claims Processing
    The increase in claims receipts is not the only factor changing 
VA's claims processing environment. The greater number of disabilities 
veterans now claim, the increasing complexity of the disabilities being 
claimed, changes in law, and Court decisions affecting VA's 
decisionmaking process pose additional challenges to timely processing 
of our claims workload. The trend toward increasingly complex and 
difficult-to-rate claims is expected to continue for the foreseeable 
future.
    A claim becomes more complex as the number of directly claimed 
conditions, or issues, increases because of the larger number of 
variables that must be considered and addressed by VA decisionmakers. 
Multiple regulations, multiple sources of evidence, and multiple 
potential effective dates and presumptive periods must be considered. 
The effect of these factors increases proportionately and sometimes 
exponentially as the number of claimed conditions increases. 
Additionally, as the number of claimed conditions increases, the 
potential for additional unclaimed but secondary, aggravated, and 
inferred conditions increases as well.
    VA's experience since 2000 demonstrates that the trend of 
increasing numbers of conditions claimed is system-wide rather than 
just at special intake locations such as BDD sites. The number of cases 
with 8 or more claimed disabilities increased from 21,814 in FY 2000 to 
51,260 in FY 2006, representing a 135 percent increase over 7 years.
    Combat operations in Iraq and Afghanistan have generated claims for 
traumatic brain injuries with complicated residual disabilities and 
complex combat injuries involving multiple body systems. Additionally, 
the deployment of U.S. forces to under-developed regions of the world 
has resulted in new and complex disability claims based on 
environmental and infectious risks, concerns about vaccines, and other 
complicating factors.
    The aging of the veteran population that is service-connected for 
diabetes also adds to the complexity of rating claims. VA has already 
begun seeing increasingly complex medical cases involving neuropathies, 
vision problems, cardiovascular problems, and other issues directly 
related to diabetes. If secondary conditions are not specifically 
claimed by a veteran, VA decisionmakers must be alert to identify them. 
This increasing complexity of disabilities adds to the difficulty of 
processing claims and the resources required to adequately process 
pending claims.
    In the past decade, the number of veterans submitting claims for 
post-traumatic stress disorder (PTSD) has grown dramatically and 
contributed to increased complexity in claims processing. These cases 
present unique processing requirements to obtain the evidence needed to 
substantiate the in-service event causing the post-service post-
traumatic stress disorder.
    The Veterans Claims Assistance Act (VCAA) of 2000 significantly 
increased both the specific requirements and the length of time of 
claims development. VCAA requires VA to provide written notice to 
claimants of the evidence required to substantiate a claim and which 
party (VA or the claimant) is responsible for acquiring that evidence. 
VA's duty to notify and assist claimants throughout the process 
increased as a result of VCAA, adding more steps to the claims process 
and lengthening the amount of time it takes to develop and decide a 
claim. For example, VA must assist veterans in perfecting and 
successfully prosecuting his or her claim by obtaining government 
records, providing assistance in gathering private records, and 
obtaining all necessary medical examinations and opinions. Since VCAA's 
enactment, we are required to review claims at additional points in the 
decision process and provide additional notifications to the veteran.
BDD
    VBA has successfully expedited claims processing through the 
Benefits Delivery at Discharge (BDD) Program, a jointly sponsored VA 
and DoD initiative to provide transition assistance to separating 
servicemembers who have disabilities related to their military service.
    Under the BDD program, servicemembers can apply for VA service-
connected disability compensation and related benefits prior to 
separation from service, which allows VA to begin payment of benefits 
as soon as possible after discharge. Servicemembers who apply for 
disability compensation under the BDD program undergo one medical 
examination instead of both a military separation exam and a VA exam 
for the disability claim. Timely decisions on servicemembers' 
disability compensation claims also help ensure the continuity of 
medical care for their service-connected disabilities. The goal of the 
program is to deliver benefits within 60 days of military separation. 
During FY 2006, VBA completed more than 29,000 claims under the BDD 
program.
Pending Inventory and Productivity
    At the end of August 2007, our pending inventory of rating related 
claims was 396,664, and our average processing time was 182.6 days. 
However, not all of the claims in our inventory should be defined as 
backlog. This number includes all claims, whether pending only a few 
days or a number of months. Under the very best of circumstances, it 
takes about 4 months to fully develop and decide a claim. This includes 
the time to notify and assist veterans in obtaining military and 
private medical records, scheduling necessary medical examinations and 
receiving results, and ultimately evaluating evidence and making a 
decision. Based on our current receipts of approximately 70,000 claims 
each month and our timeliness performance target of 145 days, our 
expected level of pending inventory with no backlog would be 
approximately 318,000 claims.
    VBA provided veterans decisions on more than 774,000 disability 
claims in FY 2006. Through August 2007, we had completed 749,894 
decisions thus far in FY 2007, which represents an increase in 
productivity of over 7 percent, compared to the same time period in 
2006. Between April and August 2007, VBA processed more claims than in 
any 5-month period on record. Despite the increase in claims processed, 
VBA's pending claims inventory has remained relatively stable for the 
past 6 months, which is a result of the increased level of claims 
received.
    Facing the challenges I've discussed, VBA is aggressively pursuing 
measures to decrease the pending inventory of disability claims and 
shorten the time veterans must wait for decisions on their claims.
Priority Processing for OIF/OEF Veterans
    Since the onset of combat operations in Iraq and Afghanistan, VA 
has provided expedited and case-managed service for all seriously 
injured OIF/OEF veterans and their families. This individualized 
service begins at the military treatment facilities and continues as 
these servicemembers are medically separated and enter the VA medical 
care and benefits system. We assign special benefits counselors and 
case managers to work with these servicemembers and their families 
throughout the transition to VA to ensure expedited delivery of all 
benefits.
    In February, the Secretary of Veterans Affairs announced a new 
initiative to provide priority processing of all OIF/OEF veterans' 
disability claims. This initiative covers all active duty, National 
Guard, and Reserve veterans who were deployed in the OIF/OEF theatres 
or in support of these combat operations, as identified by DoD. This 
allows all OIF/OEF veterans who were not seriously injured in combat, 
but who nevertheless have a disability incurred or aggravated during 
their military service, to enter the VA system and begin receiving 
disability benefits as soon as possible after separation.
Hiring Initiative and Training
    We are addressing the increasing workload by adding large numbers 
of new claims processors nationwide. We have added more than 1,100 new 
employees since January 2007 and will add a total of 3,100 by the end 
of fiscal year 2008. These employees will be placed in critically 
needed positions in regional offices throughout the nation.
    Along with the multitude of activities involved in a recruitment 
program of this magnitude, we have begun the critical tasks of 
training, equipping, and acquiring space to house our new employees. We 
have modified our new employee training program to focus initial 
training on specific claims processing functions. This will allow new 
employees to become productive earlier in their training program, and 
at the same time allow our more experienced employees to focus on the 
more complex and time-consuming claims.
Rehired Annuitants and Brokering
    Recently retired rating specialists and claims processors have been 
recruited to return to work as rehired annuitants, enabling us to 
increase FY 2007 decision output by nearly 19,000 claims. The efforts 
of our rehired annuitants are focused on processing claims pending more 
than 1 year and for veterans over the age of 70. We expect to double 
the utilization of rehired annuitants during FY 2008. In doing so, we 
expect to complete approximately 4,000 additional claims per month in 
FY 2008. We have also significantly increased overtime funding to 
maximize the contribution of our experienced and trained staff.
    One aggressive strategy implemented to balance the inventory of 
claims across stations has been to send cases from stations with high 
inventories to other stations with the capacity to take on additional 
rating work. This brokering strategy allows us to deliver more 
expeditious decisions on veterans' claims by maximizing existing 
resources and transferring work to more efficient stations.
Consolidation
    About 5 years ago, VBA centralized pension maintenance operations 
to 3 Pension Maintenance Centers (PMCs). In the coming year we will 
also centralize original pension claims to the PMCs and consolidate all 
pension activity to these 3 offices. This will allow regional offices 
to dedicate more resources to compensation claims processing.
    We will also gain processing efficiencies this year by centralizing 
all compensation and general assistance telephone calls to 9 Virtual 
Information Call Centers (VICCs). Limiting telephone customer service 
to dedicated call centers will free-up employees to focus on claims 
processing. In the past year we have assembled workgroups to evaluate 
the efficiencies that may be gained in the further consolidation of 
appellate work and fiduciary activities.
    Though we continue to face challenges, VBA has actions in place to 
improve claims processing and reduce the time veterans must wait for 
decisions as we strive to provide benefits in a responsive, timely, and 
compassionate manner.
    Mr. Chairman, this concludes my testimony. I will be happy to 
respond to any questions that you or other Members of the Subcommittee 
have.

                                 <F-dash>
                 Prepared Statement of Michael Tokarz,
                      Legislative Council Member,
                   American Legion, Poughkeepsie, NY

    Mr. Chairman and Members of the Committee:
    Thank you for this opportunity to express my views as a member of 
the American Legion Legislative Council from New York, a veteran, and a 
constituent in the 19th Congressional District of New York.
    The American Legion believes Priorities are for treatment not 
access. All veterans deserve access to the Veterans Administration 
system based on their service alone. Compensation and transition should 
follow a parallel course to the healthcare treatment of veterans. They 
should not be set as a prerequisite to healthcare. The ``timeliness of 
access'' is critical. The VA established its own acceptable access 
standard for primary care at 30 days, but to most Americans with 
private healthcare plans--30 days would be unacceptable. Actual 
timeframes by the VA's own admission average over 100 days depending on 
case complexities and jurisdiction in which they are filed. 
Unfortunately, the continued disparity between demand for services and 
available resources continues to cause delays in the delivery of 
healthcare. This is with the restrictions on enrollment of Category 8 
veterans still in place. The current global war on terror has placed 
even more demands on the VA healthcare system to meet its obligation to 
the men and women of the armed forces--past, present, and future. As a 
grateful nation welcomes with opened arms this new generation of 
wartime veterans, veterans of previous conflicts and the Cold war are 
being denied enrollment and, therefore, access to their healthcare 
system of choice.
    The restriction of enrollment for Priority 8 veterans creates 
another ``access gap'' for recently separated veterans who did not 
serve in a combat setting. Some recently separated veterans must wait 
until their VA disability claims are approved in order to enroll. For 
others, unless they are economically indigent, they are prohibited from 
enrolling. Those recently separated veterans that successfully 
transition may very well never be eligible to enroll at all. None of 
these situations are very welcoming messages to the men and women 
currently serving in the nation's armed forces or those considering 
enlisting in the military. The American Legion believes all veterans 
are entitled to VA healthcare regardless of disability, rating, or 
economics.
    The backlog in VA cases is nothing new. Recommendations from 
Veterans Service Organizations and the VA's own internal reviews called 
for additional staffing and training to reduce the backlog and number 
of appeals. Concern over adequate staffing in Veterans Benefits 
Administration (VBA) to handle its demanding workload was addressed by 
VA's Office of the Inspector General (IG) in a report released in May 
2005 (Report No. 05-00765-137, dated May 19, 2005). The IG specifically 
recommended, ``in view of growing demand, the need for quality and 
timely decisions, and the ongoing training requirements, reevaluate 
human resources and ensure that the VBA field organization is 
adequately staffed and equipped to meet mission requirements.''
    The mission continues to grow yet staffing is stagnant and a 
majority of Viet Nam era workers with the experience necessary for the 
demands being placed on the system are now reaching retirement. The 
loss of experience in this critical time can only slow down 
adjudications. Instead of reviewing how well the additional staffing 
recommended in 2005 could be reducing the backlog of new cases and 
appeals, we are again presenting testimony on the need for that 
additional staffing. With the estimated time for a Claim adjudicator to 
become fully trained and functional at approximately 24 months it is 
apparent that even an influx of new hires by the VA will not do enough 
in the near future to help the thousands of veterans whose lives are 
now in this bureaucratic limbo.
    Families, Veteran Service Organizations, religious institutions and 
friends now make up much of the support network for veterans that 
should be in the VA system. The stresses placed on these veterans and 
their families have become a national disgrace. Compensation must wait, 
but the mortgage or rent must be met, spouses and children still get 
sick and need care outside of the VA, transportation and energy costs 
still go up, every challenge that the average American must face 
burdens these veterans while coping with a disability or transitioning 
back to the fullest possible employment. It is our belief that doctors, 
nurses and professional caregivers are what veterans deserve to see in 
the VA system and anything that comes between them should be kept to 
the absolute minimum.
    The American Legion is reviewing the recommendations of the Wounded 
Warrior Commission and looks forward to the recommendations of the 
Veterans Disability Benefits Commission and the Commission on the 
Future of Veterans. Changes are needed and it is the American Legion's 
hope that the best ideas from each of these Commissions can be tailored 
into meaningful reform of the treatment and compensation of America's 
veterans. I thank the Chairman and Committee for their pursuit of the 
best answers to these staggering problems and look forward to working 
with you to fulfill the promise of complete heath care and full 
transition for all veterans.

                                 <F-dash>
            Prepared Statement of Jerry Donnellan, Director,
         Rockland County Veterans Service Agency, New York, NY

    Ever been to war? Mine was in the last century and that's hard to 
admit. The fact we lost is even harder. Being shot at tends to focus 
you, and things experienced stay with you. No one hates war more than 
those who have lived it, yet we send our children to go and peer into 
hell. They come back with scars, some physical, more mental. You can't 
take someone from a normal ordered society and drop them into a combat 
zone, a year later pull them out, put them back on Main Street, and 
expect them not to have some baggage. In a strange way the lucky ones 
with all their fingers and toes can carry deeper scars. As scary as it 
is, you're never more alive then in combat. Your senses are on 
overload, pores wide open, adrenalin coursing. But you will pay for 
this dance with the devil, in the silence of a future midnight when the 
demons return to collect. Old soldiers have passed many such midnights. 
For us it's normal. The mission is to let this generation know that it 
can and must be dealt with or it will deal with you. This mission for 
some has become a career.
    Fifty-four counties across this state have Veterans' offices. These 
were put in place by the State of New York in 1945 to inform returning 
war veterans of their rights and benefits. Makes sense because dealing 
with the state and federal bureaucracies is daunting. They're hard to 
deal with, so hard in fact that they won't release discharges and 
contact information on veterans returning to their counties. When 
questioned, we're told it's to protect the privacy of the returning 
veteran . . . Yep, that was my question. If we don't talk to them, who 
will? And do you really believe we aren't going to protect their 
privacy? We are of the same faith. We've shared the same baptism of 
fire. . . .
    Might be that we are too good at what we do. And giving us the 
contact information would allow us to reach all the returning vets in 
our county, that would lead to more claims, therefore and even the 
larger backlog. Maybe that's the problem. Well we shouldn't worry 
because these new veterans are above average. They're above average in 
unemployment, alcoholism, divorce, foreclosures, Posttraumatic Stress.
    This year the Army set a record. Some say the highest in 26 years, 
others say the highest since Vietnam. The record is for suicide. But I 
digress. We don't have to worry about them filling out claims, but it 
may be a barometer. However, keeping the claims process long and 
frustrating saves money. First, by not having to hire more and 
competent people. Second, by frustrating veterans to the point where 
they drop their claims, there's another savings. Third, is the truly 
uncooperative veteran who dies while waiting for a settlement, sad, but 
yet another savings.
    So let's get this straight. We have a government agency that's 
figured out that by spending less money they can make or at least keep 
more money. The bean counters love this stuff. So where is the 
motivation for change unless money in the VA budget is specifically 
targeted? How did we get here? Wasn't hard. We're about where we were 
in Vietnam. Then the VA Hospital System was gearing up to handle the 
geriatric population of WWI when it was hit with thousands of young 
veterans with nasty wounds that had never been seen before. But due to 
advances in medical technology and speed of evacuation from the field, 
more of them were coming home. At that time for every person killed, 3 
to 4 were wounded. If you were wounded and made it to a dust off 
chopper, odds were that you had a 95 percent chance of living. They 
didn't know what to do with them, but they did have bed space as did 
the Department of Defense so they could hang onto them longer until 
they figured it out.
    What happens after a war in general, is military and VA budgets 
tank. The people are tired of war, the economy is in need of 
transition. However, after Vietnam you could square that. It's kind of 
like the `perfect storm' in the way those 3 elements came together. It 
was a lousy war that we lost. The public was suffering not from war 
fatigue, they were genuinely angry and the economy was going over the 
falls. Remember the gas lines? So a new phrase came into our lexicon, 
``base closures''. However, with every base at least one hospital was 
lost. At the same time, the VA hospitals began following the medical 
trend of the private sector--going into shorter hospital stays, more 
outpatient, therefore they too, were eliminating beds and opening 
community clinics, the first of which was in Rockland County.
    Then there was Desert Storm. That showed America we could go to the 
other side of the world, win a war in 100 hours, take only 168 killed 
and come home. Perfect, we avenged Vietnam and proved the bean counters 
right, all in one shot. It was then that the bed letting began. From 
the time of Desert Storm to the beginning of Iraqi freedom, the 
Department of Defense and Veterans Affairs beds went down 65 percent. 
So now we've got fewer beds especially in the Department of Defense, 
and now the killed to wounded ratio has gone off the map. For every one 
person killed, 15 are wounded. We are approaching 4,000 killed in Iraq 
and Afghanistan. That translates to 60,000 wounded. With that number of 
wounded in Vietnam, we would have had 20,000 killed.
    So you can see the volume has been turned way up. The wounds are 
more grievous and are taking longer to recover as well. Now what 
happens is the wounded come back to Walter Reed, Bethesda or other DoD 
hospitals. They can't handle the load. If DoD determines that the vet 
is too badly wounded to return to duty, the vet is in fact no longer of 
any value to the military, and he is retired. This hands the veteran 
off to the Department of Veterans Affairs. Not only getting them off 
their hands, but off their books. The VA is not in that much better 
shape in terms of beds and has only one-tenth of DoD's budget. Also 
this is the point at which VA claims begin, again adding to the 
backlog. VA only has so much space and so many people in terms of 
rehab. When new wounded come in to begin rehab, the old have no place 
to go. So they are sent either home to ill-equipped parents or spouses, 
or move to nursing facilities.
    In either case, rehabilitation effectively stops or at least 
considerably slows. The fact that the veterans aren't rehabilitated to 
the highest point possible, they become more of a burden to the VA. 
Again, more claims and for a longer period of time, not to mention that 
the veterans are left with a poorer quality of life. What could happen 
is DoD could hold onto these people on active duty. They would then 
still have ``Tri-care'' military health insurance. The veteran then 
could be outsourced to a state of the art private rehab facility near 
their home. Tri-care would be used to cover the cost. No new hospitals 
would need to be built or medical staff hired. And that rehab could 
start today and continue `til it was determined by a medical 
professional, not an administrator, that as much as possible had been 
done for the veteran. On the claims backlog side, we could rehire 
recently retired claims adjudicators on a per diem or contract basis, 
possibly even with an incentive for more than average number of claims 
cleared. These people already know the system. They already have the 
training. There's no adjusting period. They could start tomorrow. Four 
of such people working full-time in each VA Regional Office could clear 
the backlog in 2 years.
    The second idea would allow regular VA doctors in hospitals and 
clinics to diagnose vets beginning their claim, and have that diagnosis 
be adjudicated. The way it works now is, in order to file the claim the 
veteran has to have a diagnosis. That diagnosis is submitted with the 
claim. Months go by, the veteran is then sent for another physical 
examination and diagnosis. In many cases they are sent back to exactly 
the same medical facility and the same doctor who examined them in the 
first place. Therefore if the original doctor is a VA doctor, let them 
submit their findings directly to the adjudication board. This may 
necessitate an increase in doctors on the clinic level; however one 
doctor could serve several clinics. That in itself should take a couple 
of months out of the claim process. It's not perfect, or may not work 
in all circumstances, but I'll take a bite. These people, facilities, 
and systems, are all in place as we speak. This could begin tomorrow if 
there is a political will to do so.
    Last, appoint someone to head up the transition, who would report 
back to Congress in 6 months. Max Cleland would be my suggestion. As a 
former senator he knows the beltway. As the former Director of the 
Veterans Administration under President Carter, he knows the VA. As a 
wounded Vietnam veteran he has seen the system from both sides.

                                  <all>

</pre></body></html>
